<html>
<title> - [H.A.S.C. No. 112-106]HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2013 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-106]

 
                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          BUDGET REQUESTS FROM

                       U.S. EUROPEAN COMMAND AND

                          U.S. AFRICA COMMAND

                               __________

                              HEARING HELD

                           FEBRUARY 29, 2012


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13





                  U.S. GOVERNMENT PRINTING OFFICE
73-432                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                Kimberly Shaw, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, February 29, 2012, Fiscal Year 2013 National Defense 
  Authorization Budget Requests from U.S. European Command and 
  U.S. Africa Command............................................     1

Appendix:

Wednesday, February 29, 2012.....................................    39
                              ----------                              

                      WEDNESDAY, FEBRUARY 29, 2012
 FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
             U.S. EUROPEAN COMMAND AND U.S. AFRICA COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Ham, GEN Carter F., USA, Commander, U.S. Africa Command..........     5
Stavridis, ADM James G., USN, Commander, U.S. European Command, 
  NATO Supreme Allied Commander Europe...........................     4

                                APPENDIX

Prepared Statements:

    Ham, GEN Carter F............................................   141
    McKeon, Hon. Howard P. ``Buck''..............................    43
    Smith, Hon. Adam.............................................    45
    Stavridis, ADM James G.......................................    47

Documents Submitted for the Record:

    Chart Prepared by Frank Boland, NATO Director of Planning for 
      Defence Policy and Planning Division, Showing Volume 
      Indices of GDP and Defense Expenditures for U.S. and NATO 
      Allies, Submitted by Hon. Michael Turner...................   171
    U.S. Delegation to the NATO Parliamentary Assembly's Letter 
      to Admiral James G. Stavridis Regarding the Participation 
      of the Republic of Georgia in NATO Special Operations 
      Forces Activities, Submitted by Hon. Michael Turner........   172

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................   177
    Mrs. Roby....................................................   178
    Mr. Turner...................................................   177

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   187
    Mr. Conaway..................................................   192
    Mr. Johnson..................................................   195
    Mr. Langevin.................................................   183
    Mrs. Roby....................................................   200
    Mr. Schilling................................................   195
    Mr. Scott....................................................   196
    Mr. Thornberry...............................................   183
    Mr. Turner...................................................   186
    Mr. Wittman..................................................   193
 FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
             U.S. EUROPEAN COMMAND AND U.S. AFRICA COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 29, 2012.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.
    The Chairman. The committee will come to order.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning, ladies and gentlemen.
    The House Armed Services Committee meets today to receive 
testimony from the commanders of the United States European 
Command and the United States Africa Command. I am pleased to 
welcome Admiral James Stavridis, Commander of the U.S. European 
Command and the NATO [North Atlantic Treaty Organization] 
Supreme Allied Commander Europe, and General Carter Ham, 
Commander, U.S. Africa Command.
    Gentlemen, thank you for your long and distinguished 
careers and your service to our Nation.
    The last year has been very busy for both of your commands, 
from operations in Libya to the current tensions with Israel 
and Iran and the recent announcements of force posture changes 
to our U.S. forces deployed in Europe.
    Admiral Stavridis, for the last 2 years before this 
committee you have strongly advocated for the presence of four 
Army brigade combat teams. But 2 weeks ago the Defense 
Department announced its decision to withdraw the two heavy 
BCTs [Brigade Combat Teams] from Europe. You have talked about 
the ready, proven, mature basing infrastructure in Europe that 
allows the U.S. military to rapidly respond to crises in the 
world's most likely hot spots. I am worried about the decisions 
being made for the sake of efficiencies and budget that change 
our force posture in Europe and neglect our commitment to 
regional allies and stability.
    I also want to highlight my continuing concerns about 
President Obama's missile defense strategy. It appears the 
United States is spending $4 on regional missile defense, like 
the European phased adaptive approach, for every $1 it is 
spending on homeland defense. What is more, European missile 
defense will be a national contribution to NATO, meaning the 
costs will be borne entirely by the U.S. at a time when most of 
NATO is failing to meet even the 2 percent of GDP [Gross 
Domestic Product] threshold for NATO membership.
    I am also concerned that the new strategy continues to 
provide sufficient resources to EUCOM [European Command] for 
the defense of Israel, given the growing threats to Israel and 
its security. It is important the United States upholds our 
pledge to defend one of the most reliable and loyal allies from 
threats to their security and existence.
    General Ham, although operations in Libya concluded last 
October, there remain significant challenges to stability and 
security on the African continent. While I am glad that the 
brutal Libyan dictator Qadhafi is gone, the country is still 
transitioning. A stable peace may not come for some time.
    Meanwhile, violent extremist organizations continue to be a 
significant concern in Africa. The attacks by Boko Haram in 
Nigeria, especially against Christians, are extremely 
worrisome. Somalia remains a continuing source of instability, 
still hosting Al Qaeda and its affiliated al-Shabaab terrorist 
organization. The increasing coordination between Al Qaeda and 
al-Shabaab is a dangerous development and a reminder of the 
threat posed by radicalism, terrorism, and ungoverned spaces.
    Piracy remains a serious threat in the Gulf of Aden, 
threatening commercial shipping in a major sea lane. The recent 
Navy SEAL [Sea Air and Land] operation rescuing two hostages, 
including the American Jessica Buchanan was good news, but we 
must find a way to prevent these violent criminal acts of 
piracy and terrorism from happening in the first pace.
    Nevertheless, the new defense strategy appears to emphasize 
presence and engagement in Asia at the expense of other 
regions, including Africa. We look forward to your testimony 
shedding additional light on these matters.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]
    The Chairman. Ranking Member Smith.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
    WASHINGTON, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I want to thank both Admiral Stavridis and General Ham for 
being before us today and for their outstanding leadership and 
service to our country. We have two great leaders in two very 
important commands. I appreciate your service. Both in Europe 
and in Africa, there are many challenges going forward.
    Certainly our relationship with NATO is critical as we 
continue to fight in Afghanistan, and it will be critical going 
forward as we look for ways to partner on the various 
challenges that we have faced. It has been successful in the 
past as we have dealt with situations in the Balkans, in Libya; 
and, Admiral Stavridis, I appreciate your leadership in 
maintaining those relationships. It is critical to us meeting 
our national security needs.
    And certainly in Africa there are growing challenges. It is 
a region that I have always been concerned about. Clearly, in 
the last 10 years, our focus has been on Iraq and the 
Afghanistan-Pakistan region, and rightly so, to some extent. 
That is where we were fighting the fight. But, at the same 
time, there are growing problems in the African region, in 
Somalia, but then also in Nigeria and Mali as Al Qaeda on the 
Arabian Peninsula and also Al Qaeda in the land of the Islamic 
Maghreb are both rising and extremely problematic.
    Stability in Africa is going to be critical because it is 
clearly a potential breeding ground for Al Qaeda and like-
minded ideologies. We are going to need to continue to pay 
close attention to that area and be mindful of the need to 
spend some resources there.
    Now the overall challenge that you will hear throughout 
this hearing is you don't have enough resources to do all of 
what I just described, much less the considerable more than 
what I just described that you have to do. We are aware of that 
challenge. The budget is a challenge right now. It is a 
challenge for the countries in Europe and our NATO allies as 
they try to figure out how to deal with deficits while at the 
same time meeting national security needs.
    But I do hope the committee will keep in mind that, as 
Admiral Mullen said, the greatest threat to our national 
security, he felt, was our weak economy and our budget deficit. 
So trying to meet that is also a national security need and 
also something that this committee should be concerned about.
    And certainly we have finite resources in meeting the 
concerns that we have. And I have issued this challenge many 
times before this committee, that if Members are upset about 
the amount of money being spent somewhere, then tell us where 
we can find it. That is a challenge that has not yet been met. 
Some have mentioned that the stimulus bill was a mistake, and 
it may or may not have been. I am not going to debate that 
issue. But that money has been spent. So from an accounting 
perspective, that doesn't help.
    We need to realistically look at our budget. And if this 
committee realistically looks at the budget and says we don't 
have enough money, then let's propose where we are going to cut 
spending and let's propose where we are going to raise taxes in 
order to make that up.
    Because I do believe the Armed Services Committee has 
responsibilities that go just beyond this committee and just 
the Department of Defense. We have a responsibility for the 
national security of this Nation in all its aspects, and we 
need to figure out how to meet that challenge.
    And I have enormous sympathy for the two gentlemen seated 
before us and all others who have come in previous weeks and 
will come in the weeks ahead because you are dealing with 
scarce resources and very difficult challenges. So we 
understand that, and that has to be part of the equation when 
you are figuring out how to meet those challenges, to live 
within the budget that we all have to live within.
    With that, I look forward to the testimony from our two 
witnesses explaining to us how they are going to meet those 
very difficult challenges in this very difficult budget 
environment and to their answers to the committee's questions.
    Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 45.]
    The Chairman. Thank you.
    Admiral.

   STATEMENT OF ADM JAMES G. STAVRIDIS, USN, COMMANDER, U.S. 
     EUROPEAN COMMAND, NATO SUPREME ALLIED COMMANDER EUROPE

    Admiral Stavridis. Mr. Chairman, Ranking Member, 
distinguished Members of the committee, thank you very much for 
having us down to talk about the important issues that both the 
chairman and the ranking member have articulated.
    I want to acknowledge it is a pleasure for me to be here 
with Carter Ham, a good friend. We would say in the Navy, a 
great shipmate. Carter, thanks for being a part of this 
hearing.
    Sir, I have a full and prepared statement. I ask that it be 
entered for the record, as you always allow me.
    Thank you.
    The Chairman. Without objection, so ordered.
    Admiral Stavridis. So for 3 years now I have been appearing 
here and doing my best to lead U.S. European Command and also 
work in NATO.
    And just to highlight a couple of things since the last 
time I appeared in front of the committee about a year ago: We 
have concluded a campaign in Libya. We have continued our hard 
work in Afghanistan. I speak from a NATO perspective here. We 
are working hard, both U.S. and NATO, in the Balkans to 
maintain stability there. I think we have, in fact, been able 
to strengthen our partnerships in Europe, which are important 
to us around the world; and we have found time to work on some 
of the new and emerging areas of security--special operations, 
cyber, interagency, private/public, countertrafficking. I think 
we are making progress in all those areas.
    And at U.S. European Command, we continue to focus on 
defending America forward. And if I were to articulate sort of 
three things that we work very hard to do, the first is to be 
ready, because the unexpected will occur. A year ago at this 
time, we saw a very sudden change of events with the Arab 
Spring. In U.S. European Command, we try to be ready to execute 
our contingency plans and be ready for the unexpected.
    Secondly, we try and conduct operations effectively. We do 
that both within the confines of U.S. European Command but, 
also, many U.S. European Command based units forward deploy 
into Afghanistan and into Iraq. We support that, and we 
consider that part of our operational responsibility.
    And then, thirdly, we work, as I mentioned, very hard on 
partnerships. Because I do firmly believe, although we see 
great strategic challenge in the Pacific and in the Middle 
East, I think we will continue to need these strategic 
partnerships that we have developed over decades in Europe.
    We are also working, as the chairman mentioned, on missile 
defense, weapons of mass destruction, focusing on the new 
strategic guidance that we, all of us, combatant commanders, 
work together with the service chiefs and with the civilian 
partners in the Office of the Secretary of Defense. And that 
has created a change in our European posture. We are going to 
reduce our current presence there, part of a larger reduction 
that has really been going on for 20 years. We have reduced 
from almost 400,000 troops in Europe at the height of the Cold 
War, troops and civilians, down today to somewhere under 
100,000, about a 75 percent reduction.
    That will continue, as the chairman mentioned, with the 
reduction of two heavy brigade combat teams coming out. We are 
going to add a rotational presentation which I think will 
ameliorate that a bit, and I am glad to answer questions about 
that as we go along.
    I am very much focused on the question of why do we need to 
continue to engage in Europe. I think people ask that question, 
and I would answer it with several different things.
    First of all, the economic base, although under stress, as 
are many economies around the world, the European economy is 
still about 25 percent of the world's GDP, about the same size 
as that of the United States.
    Secondly, the geography of Europe itself is important. It 
really is the nexus point between the United States and our 
operations in Africa and our operations in Central Command 
region. And of course you will hear from General Mattis next 
week.
    Thirdly, the NATO alliance I think continues to be of great 
importance to us. As we look at, for example, Afghanistan, we 
see 40,000 allied troops standing alongside 90,000 U.S. troops. 
It is a significant contribution.
    Fourthly, this is the part of the world that really shares 
our values: freedom of speech, freedom of religion, freedom of 
assembly. We stand with Europe in many, many ways 
philosophically.
    And then, fifth and finally, the technology, the trained 
militaries that are available to us to come and partner around 
the world, as I have described.
    So I think for all those reasons Europe will continue to 
matter. I hope to make the case that we are approaching it in a 
balanced way, and I believe that as we look at the challenges 
ahead we will endeavor to meet them.
    I want to close by simply saying thank you to the members 
of the committee. You support our military magnificently, and 
we appreciate it every day. From the men and women of U.S. 
European Command, it is an honor to be with you.
    Thank you.
    [The prepared statement Admiral Stavridis can be found in 
the Appendix on page 47.]
    The Chairman. Thank you, Admiral.
    General.

  STATEMENT OF GEN CARTER F. HAM, USA, COMMANDER, U.S. AFRICA 
                            COMMAND

    General Ham. Mr. Chairman, Congressman Smith, and Members 
of the committee, thanks very much for this opportunity to 
discuss with you the accomplishments of the men and women of 
the United States Africa Command.
    I really am honored to be here with Admiral Stavridis. He 
is a respected colleague, an old friend, and, truth be told, an 
old boss.
    Operations in Libya truly have brought U.S. European 
Command and Africa Command to a higher level of collaboration, 
and this year we will continue to work closely together as we 
seek to more effectively address the security challenges in our 
respective areas of responsibility.
    During the last year, significant changes swept across the 
African continent. The broad wave of democratic movements that 
began in Tunisia spread faster and more broadly than many 
forecasted. The Republic of South Sudan became the world's 
newest nation. In Nigeria, as the chairman mentioned, Boko 
Haram conducted violent attacks and demonstrated an increased 
threat to Western interests. And in the Horn of Africa, al-
Shabaab and Al Qaeda publicly formalized their longstanding 
merger.
    Security in Africa, indeed, continues to be influenced by 
external actors, by rapid economic developments, population 
growth, and the overall size and diversity of the continent 
itself.
    In line with the new defense strategic guidance, we have 
prioritized our efforts, focusing on the greatest threats to 
America, Americans, and American interests. Countering the 
threats posed by Al Qaeda affiliates in east and northwest 
Africa remains my number one priority. Strengthening the 
defense capabilities of our partners to responsibly address 
security challenges remains an integral part of all we do. 
Strengthening regional capabilities and peacekeeping and 
maritime security also remain important areas of focus. Our 
engagements are designed to be innovative, low cost, and have a 
small footprint. In Africa, truly a small investment can go a 
long way.
    As I travel across Africa I have been encouraged by the 
optimism of African leaders in confronting the challenges and 
embracing the opportunities ahead. I believe that, in the long 
run, it is Africans who are best able to address Africa's 
security challenges. Because of this and because a safe, 
secure, and stable Africa is in the U.S. national interest, we 
at U.S. Africa Command will continue to strive to be the 
security partner of choice in Africa.
    Everything U.S. Africa Command has accomplished has been 
the result of the professionalism and dedication of the 
uniformed and civilian women and men of the Command, our strong 
partnerships in Africa, and our teammates across the U.S. 
Government. I appreciate the tools that you have given us to 
execute our missions, including new authorities under sections 
1206 and 1207 of the National Defense Authorization Act.
    Meeting our intelligence surveillance and reconnaissance 
requirements continues to be a great challenge; and I am 
working with the Department of Defense to gain additional 
capabilities to monitor the activities of Al Qaeda and its 
affiliates in east, north, and West Africa.
    ISR [Intelligence, Surveillance, and Reconnaissance] is 
also essential to U.S. Africa Command's ongoing efforts to 
assist the Democratic Republic of Congo, Uganda, the Central 
African Republic, and the Republic of South Sudan to defeat the 
Lord's Resistance Army in central Africa.
    Again, I join Admiral Stavridis in thanking the committee 
for its enduring support, without which the United States 
Africa Command would be unable to accomplish its missions.
    Thank you and I look forward to your questions.
    [The prepared statement General Ham can be found in the 
Appendix on page 141.]
    The Chairman. Thank you very much.
    Admiral Stavridis, the new strategy talks about reorienting 
our forces away from Europe to other regions. In light of the 
recent announcement that two brigade combat teams will come out 
of Europe and your public support for continued U.S. military 
presence in Europe, what are the risks and gaps to EUCOM's 
abilities to respond to emerging regional threats and deter 
aggressors, including defending Israel from potential attacks 
from its enemies? With fewer forces, what will EUCOM 
realistically no longer be able to do?
    Admiral Stavridis. Chairman, thank you.
    First of all, just to sort of set the stage, again, we are 
in the middle of coming down from a Cold War-high of 400,000 
troops in Europe. So I believe that the reduction in the two 
BCTs that we are talking about, the 170th and the 172nd, these 
are both heavy brigades, they will come out of Europe in 2013 
and 2014.
    We are also going to take out one A-10 squadron and one air 
control squadron as well. So this is going to represent, sir, 
in the aggregate about a 15-percent reduction in our forces in 
Europe.
    I am content that we have examined this strategically; and 
while there is, obviously, some additional risk in the 
reduction of forces, that it is a manageable level of risk and 
it is appropriate in the larger global context. All of the 
combatant commanders, all of the service chiefs came together 
to discuss this. We all had the opportunity to present. Again, 
I support the strategy, and I support this reduction.
    In terms of how it will affect us, we are looking at how we 
can mitigate for that increased risk. One of the things that we 
have settled on is to have a dedicated brigade combat team in 
the United States that will come on a rotational basis to 
Europe. So we will have the benefit of bringing that in. It 
won't be static in Germany, as the previous brigades were, but 
will be available to deploy to Eastern Europe, to the Baltics, 
to the Balkans. So I think that will help us mitigate this 
level of risk.
    In terms of the aircraft reductions, even though we are 
taking out some aircraft, we are going to bring some new 
aircraft in, including the V-22, which is optimized for special 
operations. We are going to add a few ships that are going to 
be part of the missile defense system. So I think, Chairman, in 
the aggregate, I believe, although we are accepting a level of 
additional risk, I think it is a manageable level of risk when 
I look at the mitigation that we put together.
    In terms of Israel specifically, which you mentioned, I 
focus on our military-to-military relationships with Israel 
very closely. Israel is a proud and strong nation. We are very 
proud of our relationships. They run the spectrum of education, 
weapons systems, financing, funding, and so forth as well as 
the missile defense piece. I am also content that these 
reductions in Europe will not affect our ability to partner 
effectively with Israel.
    The Chairman. I feel good about the fact that you and the 
combatant commanders, the Chairman of the Joint Chiefs, the 
chiefs have had months to work on this. And I appreciate that 
you support the final decisions. I understand when you were all 
in a room, I am sure everybody had differences, but it is 
important that you do come together in support of it.
    If you had not been facing these budget cuts, however, the 
$487 billion, the sequestration that is set to hit us in 
January, would you have recommended making these cuts?
    Admiral Stavridis. I think it is fair to say that all of 
these cuts were in the context of a $500 billion reduction in 
defense over a 10-year period and that they must be understood 
in that context.
    The Chairman. Thank you very much.
    General Ham, I have got a multipart question here.
    What do you consider the top three threats to regional 
stability? How does the changing force posture in Europe and 
evolving plans for building partnership capacity affect your 
ability to respond to these threats in a timely and effective 
manner? And how does the Al Qaeda and al-Shabaab merger impact 
AFRICOM [Africa Command] planning and its building partner 
capacity programs for counterterrorism?
    General Ham. Mr. Chairman, I would categorize broadly the 
number one threat for us is countering violent extremist 
organizations that present threats to America, Americans, and 
American interests that might emanate--those threats which 
might emanate from the continent of Africa. So, in that 
context, I would say that very clearly in my mind the top three 
concerns for me are al-Shabaab in Somalia, Al Qaeda in the 
lands of the Islamic Maghreb, which operates in north and 
western Africa, and the emerging threat of Boko Haram, as you 
mentioned, based in Nigeria.
    And while each of those three is dangerous, what concerns 
me more is at least the aspirational intent expressed by the 
leaders of those organizations to more closely collaborate and 
synchronize their efforts. So while each three is independently 
dangerous, if they are able to coordinate their efforts, share 
funding, training, weapons exchange, and what have you, I think 
that presents a real challenge for us.
    Specifically to the al-Shabaab and Al Qaeda public 
announcement of the 9th of February, this of course has been 
long suspected, that there was a strong relationship between Al 
Qaeda and al-Shabaab in Somalia and as well as Al Qaeda in the 
Arabian Peninsula across the Gulf of Aden operating in the 
country of Yemen.
    Some have postulated that the timing of this public 
announcement may actually be indicative that al-Shabaab is 
under duress. I believe that they are very much under duress by 
the African countries, the African Union mission in Somalia, 
Ethiopia, and Kenya who have joined in the effort to defeat al-
Shabaab and to clear areas of Somalia from al-Shabaab control. 
And I believe the public announcement may be--certainly not 
quite a last gasp but I would say an effort by al-Shabaab to 
gain some international support.
    To counter the threat posed by these three organizations, 
we do work by, with, and through the indigenous forces, the 
host nation forces, to increase their capability. There are 
some times where it may be appropriate for U.S. forces to act. 
Libya is an example of that, although not directly related to 
terrorism. But, more generally, we are better off when it is 
Africans leading with a little bit of training and support and 
equipping from us.
    The Chairman. Thank you very much.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Following up a little bit, General Ham, on Africa, can you 
talk a little bit about the instability that is going on in the 
eastern Congo and, in particular, our recent efforts to try to 
track down the last remnants of the Lord's Resistance Army? We 
deployed some special operations forces in cooperation with the 
Ugandan Government there. How is that operation going? How do 
you see that as sort of a template along the lines of what you 
talked about on the by, to, and with approach to trying to 
bring greater stability to the region and keep extremist 
groups, like the one you described, from rising up and causing 
problems?
    General Ham. Congressman Smith, thanks for that question.
    The Lord's Resistance Army is an organization which 
creates, through violence, a tremendous amount of instability 
in a four-country region of east and central Africa. Initially 
beginning in Uganda but now extending their efforts into South 
Sudan, the Central African Republic, and the Democratic 
Republic of Congo, they have displaced many thousands of 
African citizens. They brought terror and fear to families 
across the region.
    It is very encouraging, actually, to see the four nations, 
the four African nations come together in an increasingly 
collaborative approach. The U.S. support to that approach is 
one of training, advising, a little bit of equipping, and 
intelligence-sharing but more in a facilitating role than in a 
leading role.
    To date, what we have found is that the presence of the 
U.S., mostly Special Forces advisers that are working with the 
nations, with the armed forces of those four nations, are 
having a very positive effect. We are assisting in intelligence 
fusion, in facilitating long-range communications, logistics 
operations to sustain forces in the field for long periods of 
time, and increased intelligence collection.
    So I am optimistic, but I am not yet to the point where we 
see the end in sight.
    Mr. Smith. And if I may, I think that is an important model 
going forward for the threats we face and how to confront them. 
I think we all agree the most likely threats are coming from 
these mostly non-state actors, terrorist groups affiliated with 
Al Qaeda. And for a relatively small amount of money and a 
light footprint we can work with local partners to strengthen 
those local partners to contain that threat.
    And going forward that is the most likely threat we are 
going to face. I think we have all learned the limitations of 
major full-scale occupations and full-scale ground wars in 
place like this. If we can fund those smaller, cheaper forces, 
they can be much more effective as well. So I certainly 
appreciate that leadership.
    I want to follow up on the size of the force in Europe and 
how it fits in with the strategy. I do think it is important to 
point out that yet the strategy has budget components to it. We 
don't have infinite resources. In any given endeavor in life, 
you are going to have to look at what your budget is and then 
match that up against the strategy.
    But we did start with a broader strategy. You mentioned at 
the height of the Cold War there were 400,000 troops in Europe, 
and the point was they had to be there to stop the Soviet Union 
from coming from eastern Europe into western Europe. That was a 
very clear purpose. That is not something--I don't want to 
assume, but I am pretty sure that is no longer part of our 
strategy. We don't feel like we have to have a strong enough 
force to stop that.
    So how many troops do we have there now, and what will we 
have once we implement the strategy that the President has put 
in place as a starting point?
    Admiral Stavridis. Sir, we have about 80,000 uniform 
personnel. We are going to withdraw about 12,500. So we will be 
down in the 68,000 range. I can break those down by service 
very quickly. There are about 35,000 Army, 25,000 Air Force, 
10,000 Navy and Marine Corps, roughly. And 10,000 dedicated to 
NATO.
    Mr. Smith. As succinctly stated as possible, what is their 
purpose? How does that fit into our national security strategy?
    Admiral Stavridis. First and foremost, they are there as 
part of the NATO alliance that bespeaks all of the commitments 
that NATO undertakes, therefore, Afghanistan, the recent 
operations in Libya, the operations in the Balkans, the 
counterpiracy operations at sea, et cetera, et cetera, et 
cetera. So there is the alliance piece.
    Secondly, there is a large component of building partner 
capacity, working with these European nations to encourage them 
to come and stand with us in these battlefields under non-
alliance circumstances, similar to what you are describing in 
Africa. That is the model that allows us to get allies to come 
and do that.
    And then, third, all of these troops are very engaged in 
training and exercises within Europe itself. So I would say 
those three things are the three fundamental purposes, which I 
would argue remain valid today.
    Mr. Smith. Yes. And I think they are very valid.
    Are they there for the purpose of being a forward-deployed 
force to go fight a war somewhere in the region so that they 
can get there more quickly?
    Admiral Stavridis. That is part of their purpose, yes.
    Mr. Smith. Okay. How much more quickly can you get some--
what would be a scenario for a place that the European forces 
could get to? How much more quickly could they get there than 
coming from the continental United States?
    Admiral Stavridis. Well, I would start by simply pointing 
to my colleague here on the left and say Africa, an immediate 
shot down, particularly into northern Africa, certainly into 
the near Middle East, to Levant, into Israel, Syria, in that 
region, off and into that whole broad area, the Central Command 
region. Europe is a very geostrategic platform that sits, 
again, between the United States and any number of places where 
we might hypothetically be engaged.
    Mr. Smith. And given the size of the Force that this new 
strategy will have in Europe and given some of those scenarios 
you just laid out, are you comfortable that you have the size 
of the Force to be the quick response for those small 
contingencies that is needed?
    Admiral Stavridis. I am.
    Mr. Smith. And I mean, that is the thing. The strategy was 
not pulled out of whole cloth. And I think the impression that 
is given sometimes by the questions is, you know, that you are 
all just sort of scrambling around, it is a big fire sale, 
there is no budget, no money, so we just do the best we can.
    We have a very large, very capable force. We have spent 
nearly as much as the rest of the world combined on our defense 
budget every year for 15 years. We have doubled the defense 
budget in the last 7 years and built a highly, highly capable 
force to respond to precisely these types of strategic needs. 
So I think, while it is fair to say that every strategy is 
constrained by whatever the budget constraints might be, even 
with the doubling of the defense budget in the last 5 or 6 
years, we were somewhat constrained by resources. We certainly 
saw that in Iraq and Afghanistan. That will always be the case. 
We, nonetheless, have a strategy and a budget that matches that 
strategy that gives us a large enough force to respond to the 
contingencies that you have discussed.
    And I think you have explained that quite well, and I have 
no further questions.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    Thank you both very much for your service to our country.
    General, the Arab Spring is still playing out. We have had 
government changes in a number of countries and some still in 
ferment. In many of these countries, they simply exchanged a 
tyrannical government for a dysfunctional government. I would 
like to ask you two questions relative to this.
    In your view, is the average citizen in these countries now 
better off under the dysfunctional government than they were 
under the tyrannical government? And has your concern and 
responsibility been lessened or heightened by the Arab Spring 
and the changes that we have seen there?
    General Ham. Congressman, I would say that the average 
citizen in the two countries in the AFRICOM AOR [area of 
responsibility], which are most affected, which would be 
Tunisia and Libya, are indeed better off, because they at least 
now have the opportunity--in Tunisia, where they already have 
selected a government of their choice, and in Libya, where they 
will soon have the opportunity to select a government of 
choice, choices that were denied them previously. That is not 
to say that there aren't significant challenges in every 
domain. Whether it is economic governance or security, 
significant challenges certainly lie ahead.
    The challenges for us in partnering with the security 
forces of those two countries specifically I think actually are 
heightened now in this post-Arab Spring or Arab awakening 
timeframe where--in Libya, for example, where we did not have a 
previous military-to-military engagement, we do now. And we 
have met several times, to include my visit to Tripoli and 
hosting the military chiefs of the Libyan armed forces at our 
headquarters in Germany. We are building a relationship and are 
helping them craft the way ahead.
    Similarly, in Tunisia, where we have had a longstanding 
good military relationship, the needs perhaps are greater now. 
In terms of professionalizing, the Tunisians have asked for 
some assistance in border security and in a number of areas as 
well.
    So the opportunities are great, but the challenges are also 
great.
    Mr. Bartlett. When we first became involved in Libya, I 
asked Mr. Gates if the people we were aiding and abetting in 
Libya were the same people that we were fighting in Iraq and 
Afghanistan; and his honest answer was we didn't have the 
foggiest notion whether that was true or not. Do we now know 
whether that was true or not?
    General Ham. By and large, I would say, sir, that is not 
true. But there are some small pockets remaining in Libya and 
in other places in north Africa that were centers of foreign 
fighters who had left north Africa, transited along various 
routes, and ended up fighting against us and other coalition 
forces inside Iraq. There are remnants of that, and there are 
indications that Al Qaeda's senior leadership is seeking to 
reestablish those networks, and that is one of the challenges 
that lays ahead for us.
    Mr. Bartlett. Admiral, Europe has an economy I think a bit 
bigger than the United States. The amount of money that they 
spend on defense is a fraction of what we spend on defense.
    After the cuts that we have made in our spending, our 
military budget will grow from $525 billion this year to $767 
billion 5 years from now. Obviously, we are contributing 
nothing to reducing the deficit when we spend more next year 
than we spent this year. And with a deficit that grows $1 
billion every 6 hours, clearly we have to do something, which 
will mean that Europe ought to step up and spend more on 
defense so that we can spend less on defense or we are going to 
go bankrupt, sir. I know some of their countries are going 
bankrupt now. In your view, do they have either the will or the 
ability to step up and provide an equitable commitment to their 
defense?
    Admiral Stavridis. Sir, I think that the Europeans--as you 
correctly say, the economies are roughly about the same, $15 
trillion economies, the United States and Europe. The 
Europeans, by and large, the NATO members have set a goal of 
spending 2 percent of their gross domestic product on defense.
    Mr. Bartlett. We are spending double that; is that correct?
    Admiral Stavridis. They are not meeting that goal, and they 
are failing to meet a goal that they have set for themselves. 
So I believe that Europe should spend more on defense; and I 
have spoken publicly on this many, many, many times.
    Now the good news is, even at that low level, Europeans 
spend about $300 billion a year on defense, which is a 
significant contribution in the sense of being part of security 
globally. It is not enough. They should spend more. And if they 
spent more, it would permit the United States to spend somewhat 
less.
    Mr. Bartlett. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Gentlemen, welcome and thank you for your service in these 
very critical areas internationally.
    Admiral Stavridis, I think you are uniquely qualified and 
experienced in this position in several areas. I have always 
appreciated your perspective both from a military and from a 
diplomatic perspective, and I would recommend to the Members 
that any time they get an opportunity and are in Europe to stop 
by and get your unique perspective. I know that I have 
appreciated the insight that you bring to that position.
    Having said that, in the area of counternarcotics, can you 
explain to us exactly what is going on with the bridge, 
particularly from Latin America through Africa and into Europe? 
And I would be interested to know, since Azerbaijan is a key 
ally in terms of resupply for Afghanistan, do they have a role 
in this effort of stopping narcotics going into Europe?
    And then for you, General Ham, thank you for your service 
as well. If you could explain to us the strategic value of 
Djibouti and the role that it both plays and you think will 
play as we look at ways to reduce our presence particularly in 
Europe but as it would affect Djibouti.
    Admiral Stavridis. Congressman, thank you very much. It is 
great to see you, as always.
    I think Europe has two streams of narcotics that come into 
it, both of which are dangerous in slightly different ways.
    The first, as you allude to, is cocaine which, as you and I 
both know from our conversations when I was with SOUTHCOM 
[Southern Command], is a series of flow that comes out of the 
Andean ridge. It comes up to the United States, but we are 
increasingly seeing it break and come over to western Africa. 
And I would invite General Ham to comment here. But then it 
flows from western Africa north into the Iberian Peninsula.
    There are many countries in Europe that have a significant 
problem with cocaine. The money from that trade tends to go 
back into Latin America, where it undermines fragile 
democracies, notably in Central America and the Andean ridge.
    The second flow, which you also alluded to in the context 
of Azerbaijan, is heroin, which comes, of course, from poppy 
which is grown in Afghanistan, converted into opium, through 
which it is typically transported, and it then becomes heroin. 
That is a business that not only creates corruption, has a huge 
human cost, particularly in Eastern Europe and Russia, which 
have many, many addicts, but it also flows money and resources 
back to the Taliban in Afghanistan.
    So these two streams coming into Europe are of concern to 
us from a security perspective. Therefore, at U.S. European 
Command, one of the things we are doing is using some of our 
current and existing resources to focus on countertrafficking, 
how we can help the interagency break apart this supply 
process.
    Azerbaijan, to answer your question, is very important in 
this. Turkey is very important in this in that the stream of 
countries between Afghanistan and into eastern Europe is where 
we are focusing a lot of those efforts.
    General Ham might want to comment on the African piece of 
that as he answers your other question.
    General Ham. I would, Congressman Reyes.
    As Admiral Stavridis pointed out, counternarcotics is very 
much a destabilizing influence, particularly in West Africa. 
The Africans are not the overall consumers of these drugs that 
are coming from Central and South America, but they are the 
transit point for the narcotics that go into Europe.
    A couple of efforts that we are undertaking, we are 
supporting a multinational intelligence operations center in 
Cape Verde; and last year they facilitated the largest seizure, 
well over $100 million worth of cocaine, in a good effort. But 
more importantly than specific seizures, it is the undermining 
of good governance, the influence of corruption that permeates 
areas where illegal narcotics are flowing, and that works 
contrary to our national interests.
    In Djibouti, sir, I would mention that, at present, there 
is a good contingent of Texas Army National Guard folks that 
are there. I had the opportunity to see them a few weeks ago.
    It is a very stable platform afforded to us by a most 
reliable partner in that part of the world. It allows us at 
Africa Command as well as those from Central Command, 
Transportation Command, and U.S. Special Operations Command a 
place from which we can operate and project into multiple 
different regions: Africa, Southeast Asia, the Indian Ocean. It 
provides a great platform for countering piracy. It is a vital 
installation for us and one that has served most capably. And, 
most recently, in the hostage rescue situation it would have 
been extraordinarily difficult to have executed that mission 
without the basing in Djibouti.
    Mr. Reyes. Thank you.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General Ham, I won't repeat the concerns that have been 
expressed about Africa and the potential dangers there. I would 
just add that the circumstances are not going to be static. 
They are going to evolve in some direction or another. And I 
think we are all going to trust that if it evolves in a more 
dangerous direction and you don't have the resources you need, 
of whatever variety, to deal with an increasing danger, that 
you will raise your hand and say, I have got to have more, 
regardless of, you know, some overall strategy that emphasizes 
other parts of the world.
    Admiral Stavridis, I wanted to ask you about a couple of 
news headlines that got my attention, related to NATO. One was 
an op-ed in today's Wall Street Journal about whether the 
Afghans hate America.
    And, you know, a lot of us are getting the question after 
this most unfortunate Koran-burning incident about whether we 
are being successful--NATO is being successful in helping to 
train the Afghans to defend themselves, which, even if it is in 
our best interest, if they don't want to be trained, if they 
don't want us there, it causes lots of people to say, can we be 
successful? So, given what we have seen on the news the past 
week, what is your perspective about chances of success there?
    Admiral Stavridis. Thank you, sir.
    First of all, it has been a very challenging week in 
Afghanistan, obviously the result of a variety of circumstances 
that have dominated the news cycle.
    If you step back and you look at the larger progression in 
Afghanistan, I remain cautiously optimistic that we can succeed 
there. I think the key--and you mentioned it--is can we 
effectively train the Afghan security forces to take on this 
important mission of defending their own country, which is how 
it should be. Why I feel confident that we are moving forward 
in that is the build-up of the Afghan security forces. We now 
have over 300,000. They are in everything from marksmanship 
training to literacy training. But, most importantly, we are 
seeing them very effectively move into the battlefield.
    Two years ago when I testified in front of this committee, 
we were getting ready to mount an operation into a place called 
Marja, which is in south Afghanistan. At that time, we had 10 
coalition forces for every Afghan who was in the fight. Today, 
we have two Afghans for every coalition soldier in the fight. 
That is real progress over a 2-year period.
    I think additionally, when I look at the operations we are 
conducting to date, 90 percent of them are conducted with 
Afghans; 40 percent of them are conducted with Afghans in the 
lead.
    My own trips to Afghanistan--I have been there many, many, 
many times. To the question, do Afghans hate Americans? I don't 
think so. I have seen with my own eyes frequently the standing 
together of Afghan and coalition troops very, very effectively. 
We are always going to see an incident or two. But if you stop 
and think about 300,000 Afghan troops, 140,000 coalition troops 
effectively operating together every single day, they are 
standing and taking the field.
    I think you will hear from General Allen, who will be back 
here in a couple of weeks, in detail about all of this. But as 
the strategic NATO Commander for the operation, again, I remain 
cautiously optimistic despite a very challenging week that we 
have been through in Afghanistan.
    Mr. Thornberry. Thank you.
    And just very briefly let me ask about one other complex 
topic. There was a news report yesterday about a study that 
says that NATO is still playing catch-up in the cyber arena. 
Could you just briefly outline how NATO, as an alliance, is 
catching up from a military standpoint on cyber?
    Admiral Stavridis. I agree with the statement that we are 
in the process of catching up. We have hard work to do on 
cyber.
    Two very quick things that I will mention. One is the Cyber 
Center of Excellence in Tallinn, Estonia. It is a nascent 
organization that is bringing together policy actors across the 
military side of the spectrum. Secondly is a computer incident 
response center that we are building in the operation center of 
the alliance which will, I believe, begin to create some 
effectiveness in this area.
    We have a lot of work to do, and it is a focus area of 
mine, as you and I have discussed.
    Mr. Thornberry. I appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman; and thank you, 
gentlemen, for being before us today.
    Admiral, in particular, we know the life extension plan for 
the B-61 nuclear warhead which we forward-deployed in Europe 
will cost upwards of $5 billion. What is the cost to EUCOM and 
the continued value of forward-deploying nuclear weapons in 
Europe? What is the military utility of these weapons? And if 
our NATO allies do not invest in continuing to maintain our 
nuclear delivery vehicles, how does EUCOM expect to fill this 
gap?
    Admiral Stavridis. Thank you very much. Excellent question.
    First of all, NATO's position on this is in the process of 
being revisited in anticipation of the Chicago summit in May 
where the defense and deterrence policy review will present the 
alliance's path forward in total on nuclear weapons, not just 
B-61 but strategic as well. So the first answer would be this 
is very actively under discussion in the alliance. We will see 
how the nations come out at the summit in May.
    In terms of the military utility of the weapons, they have 
a deterrent value since other actors hold similar levels of 
weapons.
    And in terms of NATO continuing to finance the 
infrastructure and what are their costs, the costs are 
relatively significant in protecting these weapons and, thus, 
we have to, as an alliance, make decisions about whether we 
want to maintain them or not. Again, I think that will be 
something that will be decided in the May timeframe. I assure 
you it is being focused on, and I anticipate a fairly clear 
NATO policy statement in May.
    Ms. Sanchez. As our NATO head, where do you see 
opportunities for further partnership with NATO?
    Admiral Stavridis. I would look, first and foremost, at 
building on the coalition in Afghanistan. Twenty-eight NATO 
nations, but we have 22 other nations who are partnering with 
NATO in Afghanistan. These are many Pacific nations: Korea, 
Australia, New Zealand, and Tonga. So I think that coalition 
base gives us one set of potential partners looking forward.
    Secondly, we have two organizations that reach beyond NATO 
today, the Mediterranean dialogue. We are in the process of 
talking, for example, with Libya. Already many of the other 
nations in General Ham's region are part of this. The nations 
around the Mediterranean are natural NATO partners.
    Thirdly, we have an organization called the Istanbul 
Cooperative Initiative which are the Gulf states. We partner 
with all of them in piracy operations at the moment.
    And then, fourth, just to push a little further out there, 
two nations that I think are worth exploring possibilities with 
are India and Brazil. They both have great capability. They 
could operate with us, for example, on a piracy mission, should 
they choose to do so.
    So I think that is a spectrum of partners. But, again, this 
idea of partnership is very important to the alliance.
    Ms. Sanchez. Great.
    And to both of you gentlemen, what are your thoughts on our 
relationship with Russia? Is there strategic stability there? 
What are our mil-to-mil relationships with them? Have they been 
helpful in Afghanistan? Is it worth continuing to pursue 
missile defense cooperation with them?
    We had talked to them a while back about the phased 
approach and coming in with it and helping us, and we haven't 
really heard much back. So can you sort of give us an idea of 
how you see our relationship with Russia out there?
    Admiral Stavridis. I can. Russia is part of the EUCOM 
region, so I will hit that one, I think.
    First of all, we have many areas of cooperation with 
Russia: counterterrorism, counterpiracy. They are being helpful 
in Afghanistan, both with logistics, with sales of helicopters, 
Mi-17 helicopters, donations of ammunition, weapons, 
cooperation on information- and intelligence-sharing. They are 
a very effective partner in piracy off the Horn of Africa, 
which General Ham knows quite well. So there are many zones of 
cooperation. Our mil-to-mil includes a robust program of 
exercises and engagement. That is the good news.
    We do have areas of disagreement with Russia. We disagree 
with them about the policy with regard to Georgia. We disagree 
with them at the moment about missile defense. So, as always in 
a relationship, there is going to be balance, but I would argue 
that we need to continue to pursue trying to find cooperation 
where and when we can with Russia.
    The Chairman. The gentlelady's time has expired.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Admiral and General, I truly want to thank you for your 
service to our country.
    As you know, this is probably one of the most bipartisan 
committees in Congress, and I always appreciate when the 
distinguished ranking member points out that sometimes there 
are things outside of this room that impact us so much. That is 
why I can't help but continue to be mindful, as we were when we 
passed that $825 billion stimulus package, that if you added 
that with the $345 billion of interest we are paying, that 
almost equals the amount of cuts that we will take both now and 
with the sequestration.
    We talk about the strategic guidance and the new strategic 
guidance. But, Admiral, can you tell us how much time were you 
given to analyze this new strategic guidance and offer your 
input from the time you were first asked to do that until the 
time you submitted your input?
    Admiral Stavridis. General Ham will remember with me, 
because it was done with all the combatant commanders together. 
My recollection is it was over about a 6-month period, I 
believe.
    Mr. Forbes. Were you all together in doing that?
    Admiral Stavridis. We were. We did it not only using 
technology, video teleconferences, but then we would 
periodically physically come together, because it is important 
to do that I think in a room together.
    Mr. Forbes. Were you given a dollar figure that you had to 
work to before you----
    Admiral Stavridis. No, sir.
    Mr. Forbes. So you did this totally out of context of the 
$487 billion of cuts?
    Admiral Stavridis. We did it in a context of a need to 
reduce in general, but we were not given a specific dollar 
figure--for example, in the case of EUCOM, of being told you 
have to cut your activities by this dollar figure. We certainly 
did it in the context of the reductions.
    Mr. Forbes. So your strategic guidance would have been the 
same whether the cuts were $7 billion or $487 billion?
    Admiral Stavridis. No, sir, I think we were informed by the 
size of the cuts. There was, as I say, a contextual sense of 
the cuts but not a parsing dollar for dollar.
    Mr. Forbes. So how were you informed by the size of the 
cuts? It just looks like to me--maybe I am wrong, but it looks 
like to me it would make a big difference on your guidance as 
to whether you thought you were working with $487 billion of 
cuts or $8 billion of cuts.
    Admiral Stavridis. We were all certainly aware of the 
magnitude of the cuts; and so I think that, again, contextually 
informed us as reasonable actors. But, again, I want to 
emphasize that this was not a specific dollar for dollar kind 
of a drill. It was very much, let's get out a clean sheet of 
paper, we are in the context of reducing the budget because of 
a national deficit, and how are we going to do that? How are we 
going to contribute to this?
    Mr. Forbes. And I don't want to push this too much. I am 
just trying to understand. It looks like to me it is just light 
years of difference.
    Because one thing we hear is people saying we had security 
changes, and that drove this new strategy. The other thing is 
we hear people always coming in there and say, well, we had to 
do this because we had $487 billion of cuts. And I am just 
scratching my head when the two of you got together with the 
other combatant commanders, if you had no idea whether this was 
going to be $400 billion or something of that magnitude, then 
what you would be saying is this was all done based on a 
security change, as opposed to the budget. How did you know 
this magnitude? I mean, were you guessing at it or--I mean, you 
had to have some kind of guidance.
    Admiral Stavridis. No, no, we were--obviously, any senior 
officer in the Department is quite well aware of the macro 
sense of where the budget is going. So that is sort of a common 
baseline. And, again, we were brought forward into the process 
specifically in response to the reductions in the deficit.
    Mr. Forbes. You guys just kind of came into the meeting 
kind of all quietly knowing that there were these cuts that had 
to be made, but there was never a discussion about the dollar 
figure that was----
    Admiral Stavridis. Again, the macro dollar figure was well 
understood.
    Mr. Forbes. Which was what? What macro dollar figure?
    Admiral Stavridis. We had--I think it was around $500 
billion was the number we were looking at.
    Mr. Forbes. So you all were told when you started this 
planning process that you had to have cuts of about $500 
billion.
    Admiral Stavridis. We were aware that reduction was going 
to be appropriate for the Department.
    Mr. Forbes. How were you made aware of that?
    Admiral Stavridis. Through our own processes as well as 
briefings.
    Mr. Forbes. So when you got a briefing, did somebody ever 
communicate and say, this is $500 billion of cuts; basically, 
we have got to find a way to make them work?
    Admiral Stavridis. The general context was presented to us 
of the level. When I say we weren't focused on the numbers, I 
am speaking as the Commander of U.S. European Command.
    Mr. Forbes. I understand. I am just trying to get a handle 
on when all of you came together did you just kind of assume it 
is going to be $500 billion? Or at some point in time----
    Admiral Stavridis. No.
    Mr. Forbes [continuing]. Does somebody say, here is $500 
billion, roughly; we have to make a strategic guidance that 
fits that?
    Admiral Stavridis. I think all of those things came 
together.
    Mr. Forbes. Thank you.
    The Chairman. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank you, Admiral and General, for your service to our 
country and for your devotion to our country. I mean my 
questions not to be rhetorical but clinical.
    Admiral, you do an eloquent job, I think, of laying out the 
historic importance of our relationship with our friends and 
allies in Europe and you talk about shared values and the 
critical importance of the European economy and the global 
economy and the proximity of Europe to hot spots around the 
world. It is a very compelling presentation. I want to ask you 
this question: Who are our adversaries or enemies in the 
European area command today?
    Admiral Stavridis. I would argue that we don't have a 
specific set of enemies within the confines of the U.S. 
European Command. I think, as the chairman and the ranking 
member both alluded to, the threats we face today are 
transnational in character, generally speaking. So it is 
difficult to sort of pin an area and say here is an enemy.
    Mr. Andrews. Understood. And in an era of asymmetric 
warfare you can't really define the opposition the way you used 
to be able to.
    If you had to characterize the asymmetric threat in your 
AOC [area of commitment], how kinetic has it been in the last 
12 months or 24 months? Kinetic ranging from Afghanistan is 
incredibly kinetic on an hourly basis to, thank God, a country 
like the UK [United Kingdom] or France is rather quiet. How 
kinetic are things in your AOC?
    Admiral Stavridis. Well, in terms of terrorism in Europe 
last year, there were 300 kinetic terrorist incidents, ranging 
from bombings to assassinations, including two U.S. airmen, for 
example, who were shot dead at the Frankfurt airport. So there 
is a terrorism piece to it.
    In terms of cyber, there have been, as there are here in 
the United States, thousands of cyber incidents that are of 
concern.
    In terms of the Balkans, as an area within the EUCOM 
region, we had major rioting there about 3 months ago, 
including several of our NATO peacekeepers being shot, dozens 
of them being put in the hospital. This is in northern Kosovo.
    So I think there is a certain amount of kinetic activity. 
But, again, I think it is, by and large, the concerns we have 
from a security dimension are the transnational things that are 
difficult to categorize geographically.
    Mr. Andrews. Sure. And I am well aware of the fact that the 
mission of an organization like yours goes far beyond what is 
happening today. It is designed to mitigate what might happen 
in the future and improve what might happen in the future. I am 
well aware of that.
    The question we are all going to have to wrestle with is 
how to match up our resources and our basing structure with the 
level of those threats; and, again, I think you have done a 
very eloquent job describing your views on this.
    Here is what a lay person in my district might say about 
this discussion; and, General, this will go to you as well.
    At least on the surface, the level of kinetic activity by 
Al Qaeda and its allies has been quite acute in the African 
theater. You have mentioned al-Shabaab, AQIM [Al Qaeda in the 
Islamic Maghreb], Boko Haram as very, very active, not to 
discount in any way the kineticism we see in Europe. But if I 
understand this correctly, we have committed 96,000 personnel 
to Europe, if you count uniform and defense civilian and 
contractors, and 2,100 people to Africa, which if I understand 
correctly, 550 of them are under your command but not actually 
based in Africa. How would we explain that apparent mismatch of 
resources to a citizen? Either of you?
    Admiral Stavridis. Well, I would say that we are in the 
process of reducing our forces in Europe for exactly these 
reasons; and this is why we are, within a balanced, 
strategically calculated way, drawing down in Europe. And I 
think we will continue to do that.
    Again, if you look at the line which goes from the Cold 
War, when we had almost 400,000 total, down to where we are 
today, about 96,000, that is a 75 percent reduction in 20 
years. I would anticipate over time that will continue to go 
down.
    In terms of Africa, I will let [General] Carter describe 
it, but I will pick up from a previous life when I was U.S. 
Southern Commander. Part of the answer is because the nations 
at least in the Southern Command region don't leap to the 
opportunity to have U.S. troops stationed there, by and large.
    Mr. Andrews. I am certainly well aware of that.
    Admiral Stavridis. That is part of the answer to----
    Mr. Andrews. General, I have about 16 seconds.
    General Ham. Sir, in Africa, I would say a light footprint 
is consistent with what we need and consistent with the defense 
guidance. Lots of the forces who operate in Africa are based in 
Europe; air, maritime and special operating forces; and it is 
that proximity to the theater that enables the agility we 
require.
    Mr. Andrews. Thank you. I appreciate the discussions about 
right sizing. I think you have been very helpful. Thanks both 
of you.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Admiral, General, thank you for being here, and thank you 
for your testimony.
    Admiral, I appreciate your substantive knowledge, your 
leadership, and your capability. I want to walk you back a bit, 
though, on your answers that you were giving my ranking member 
on the Strategic Forces Subcommittee, Loretta Sanchez, on the 
issue of the deterrent and the defense review that is 
undergoing with NATO.
    First off, I want to acknowledge, before I toss this to 
you, in the National Defense Authorization Act just last year 
Congress, with the President's signature, stated that the 
presence of the nuclear weapons of the United States in Europe, 
combined with NATO's unique nuclear sharing arrangements under 
which nonnuclear members participate in nuclear planning and 
possess specifically configured aircraft capable of delivering 
nuclear weapons, provides reassurance to NATO allies who feel 
exposed to regional threats.
    That was an affirmation both from the Administration and 
Congress of the importance of nuclear weapons in Europe. The 
strategic concept for NATO reaffirmed the nuclear alliance and 
the issues of basing.
    The Senate, in the ratification of the START [Strategic 
Arms Reduction] treaty, placed upon the Administration the task 
of looking to Russia's advantage in tactical nuclear weapons, 
which public sources quantify those as we are in the hundreds 
and they are in the thousands. It is a 10-to-1 ratio of 
advantage that Russia has.
    No one suggests that we should withdraw our nuclear weapons 
without concessions, significant concessions from the Russians. 
You did make a statement that there were similar presence to 
ours. I believe you mean similar ----
    Admiral Stavridis. I was speaking of quality, not quantity.
    Mr. Turner. That is exactly what my note was just going to 
be. I wanted you to confirm that that is of type, not quantity.
    So that as we go up to the issue of the value, that 
disparity--and I appreciate you acknowledging it--has to be a 
focus of a 10 to 1. And that is obviously the issue in the 
deterrence, the defense and deterrence review, and also in the 
acknowledgements from the Senate and I think from our NATO 
allies of no one is suggesting, certainly on behalf of the 
Administration, that we should be withdrawing without 
acknowledging the Senate's focus of reduction in the tactical 
nuclear weapons on the part of Russia. I appreciate your 
clarifying that.
    With respect to Mr. Bartlett's discussion, you were saying 
that, you know, of the 28 nations only 4 of them are meeting 
the 2 percent GDP requirement threshold. This is their own 
goal. They continue to fall short of it.
    As you know, I am active with the NATO Parliamentary 
Assembly. Mr. Frank Boland, the director of planning for the 
defense policy and planning division on the NATO international 
staff, gave us a chart, which I believe you have in front of 
you, that shows basically the United States foots 
overwhelmingly, perhaps as much as 75 percent, of the overall 
expenses with respect to NATO operations. This was his 
presentation. He was showing the comparable GDPs, which you 
mentioned in your discussion, that the GDP of Europe and the 
United States are the same, Europe being down here, defense 
spending for the United States being up here.
    Now, the comment you made that I thought was most 
interesting is you said perhaps if they would spend more we 
also could spend less. I know that you know that among our NATO 
allies there is a view that some of this disparity is a result 
not just of our contributions to NATO but just a global 
presence. Could you speak a little bit more about what our 
European allies need to do to bolster their participation in 
NATO? People talk about smart defense, how they need to also 
come together in ways in which they spend. I would appreciate 
your input on that.
    Admiral Stavridis. Thank you.
    Again, just to do the numbers, if our budget is kind of 
$600 billion-ish, $650, theirs is about $250 to $300 billion. 
It is about a two-to-one ratio. They do not meet the 2 percent. 
You could argue it is somewhere between 4 and 8 of them are 
perhaps meeting it out of 28. So that is far too low.
    Again, I think you hit the nail on the head, sir; and it is 
smart defense, which is this idea of how they can operate 
collectively together to get more bang for the buck, which are 
things like Baltic air policing, alliance ground surveillance, 
helicopters, NPA [non-precision approaches], ISR. I can provide 
for the record, since we are running out of time, some detail 
on that. But I think that is the powerful point the Europeans 
should focus on as they go toward this NATO summit.
    Mr. Turner. I would appreciate if you would do that.
    [The information referred to can be found in the Appendix 
on page 171.]
    Mr. Turner. One more item, Admiral. I know that you are 
aware that the NATO PA [Parliamentary Assembly] committee from 
the House has sent you a letter asking for the consideration of 
Georgia to participate in the NATO Special Operations facility 
headquarters with the Special Operations training and 
coordination activities. I think as a great ally and partner 
they would be excellent for that, and we would appreciate your 
thoughts on that.
    Admiral Stavridis. I agree, and we are investigating that, 
with an eye toward making it happen.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mrs. Davis.
    Mrs. Davis. Thank you very much, Mr. Chairman; and 
certainly to Admiral Stavridis and General Ham, thank you so 
much for your service and for being here.
    I wanted to ask you to focus for a minute on something that 
we have been calling over the last number of years the whole-
of-government approach. And as you know, General Ham, in many 
ways I think AFRICOM was supposed to be the kind of poster 
child for this. What can you tell us about any services, 
purposes, programs, processes that are occurring that you are 
working with the Department of State and that in any way have 
reduced the need for defense, the Department of Defense, to be 
doing something there in the area as well? Is it making any 
difference in that way? Is it something that is helpful? What 
are we actually doing that we have seen a true difference in 
the way that we do our job?
    General Ham. Ma'am, I would start by looking at Somalia, 
which is an area, again, in the region of Africa which is the 
highest priority for me. And in our security assistance 
approach, most of those authorities and most of those resources 
reside with the Department of State. So we look for a 
collaborative approach with the Department of State and in 
partnership with the chiefs of mission in the countries that 
are neighboring Somalia.
    And under the auspices of the African Union mission in 
Somalia, under State authorities, augmented by Department of 
Defense trainers and advisors, we have helped particularly 
Uganda and Burundi, and increasingly Djibouti and now Kenya, to 
build capable forces to operate inside Somalia in an effort to 
provide additional security there.
    If that is successful, and I believe the trend line is 
pretty good right now, that means that that is an area where 
the United States would not have to commit sizable forces to 
address a security situation. And that is really what we are 
trying to do. That is the essence of building partner capacity 
in this collaborative approach with State and Defense.
    Mrs. Davis. When we think of the number of troops, and I 
think my colleague was contrasting in the European Command with 
AFRICOM, you mentioned working with the State Department, are 
we talking mostly contractors there? Are those State Department 
personnel that are working there?
    General Ham. By and large, ma'am, the training is generally 
accomplished by contractors and often augmented by U.S. 
uniformed military personnel.
    Mrs. Davis. So if you add those numbers, I guess trying to 
get--maybe that would provide a more complete picture.
    But, again, when we look at resources and we look at where 
we should be, where we want to put our dollars, and with the 
economic constraints that we will be having, I think trying to 
get--that would be helpful in getting a better picture of what 
needs to occur there. Because, in many ways, I think that would 
probably be an area where people would target and would think 
that that is an area that we could certainly cut back on.
    General Ham. For us in Africa, in most missions, the use of 
contractors is a good solution; and it is consistent with the 
Defense guidance of, again, a light U.S. military footprint. So 
what we seek to do is provide the unique U.S. military 
capabilities when and where required to augment the basic 
capabilities that are provided by the contractors.
    Mrs. Davis. I think we are also aware of the humanitarian 
assistance we provide, and are you worried that in a number of 
instances that we would be looking to cut back on those? And 
what argument would you make that that would not be a good 
idea?
    General Ham. The linkage between security and humanitarian 
efforts in Africa is very clear to me, and I think we have to 
look at each situation independently. But I do worry overall 
that if there is a significant decline in the State 
Department's security assistance or in USAID's [U.S. Agency for 
International Development] ability to provide developmental or 
humanitarian assistance those will have security consequences.
    Mrs. Davis. Okay. Thank you, Mr. Chairman. I think my time 
is just about up. So I yield back. Thank you.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    Admiral, always a great pleasure to see you. I am looking 
for the opportunity to come visit again sometime. A great time.
    General, good to see you.
    I am just going to kind of go through some numbers here and 
see if I got this right.
    Admiral, EUCOM has roughly 80,000 troops, going down to 
about 68,000 troops, about 10,000 in Afghanistan on the EUCOM 
side, not total NATO, of course. You have got 1,000 or so 
people in the headquarters, something like that, and about $35 
million.
    And, General Ham, you have got it looks like about a couple 
of thousand people, something like that, according to the 
document here, and about $67 million for headquarters support 
and then a couple hundred million dollars for other activities.
    Admiral, you testified that you, in response to somebody 
here, that you conduct training and exercises with these 
troops. General, you don't have troops assigned. Do you conduct 
training and exercises? And, if so, where and how do you get 
the troops?
    General Ham. Sir, we most certainly do conduct training and 
exercises, a very robust program. We request those forces 
through an established process----
    Mr. Kline. Which is? What is that process?
    General Ham. It is called the global force management 
process, where there are priorities established. I submit a 
requirement, typically on an annual basis unless there is an 
emergent requirement such as the operations in Libya, so that 
there is some predictability. And we place our requirements, 
and that goes through a process managed by the Joint Staff. It 
ultimately leads to a Secretary of Defense decision for force 
allocation.
    We are very heavily reliant on Reserve Components. That is 
a good thing for us. We have very strong State partnership 
programs that contribute very significantly to our training and 
exercise programs as well.
    Mr. Kline. Okay. I am sort of going somewhere with this. I 
am a little bit concerned that we have built up the number and 
size of combatant commands over the last few years. AFRICOM 
being clearly an example didn't really exist as a command until 
almost about--I guess you had one predecessor----
    General Ham. Yes, sir.
    Mr. Kline. Kip probably was the first, as I recall, and now 
you are there. And yet we are shrinking. Not only are we going 
down from 80,000 to 68,000 in Europe, presumably the source of 
some of the troops that you borrow through this process to 
train with, but the end strength of the United States Army is 
going to be plunging. The Marine Corps are going down 
significantly, from over 200,000 to 182,000 or something. So we 
have fewer and fewer forces, and yet we have the combatant 
commands that have to train and draw on these forces. And even 
when you draw from the Reserve Component, they have been pretty 
heavily used, too.
    So I am looking at potentially a pretty high OPS TEMPO 
[operations tempo] as we--as SOUTHCOM and EUCOM and AFRICOM and 
CENTCOM [Central Command] and PACOM [Pacific Command] and so 
forth are conducting exercises with fewer and fewer troops, and 
I am a little bit concerned about the size of these forces and 
of these combatant commands.
    And looking at AFRICOM, I am reading here from--this is a 
document prepared by us. It wasn't part of your testimony, but 
I think it is accurate. But it says AFRICOM has no assigned 
standing forces. It does, however, have service component 
headquarters. It has got U.S. Army Africa [USARAF]. USARAF is 
headquartered in Vicenza, Italy. U.S. Naval Forces is 
headquartered in Naples, Italy. U.S. Air Forces Africa is 
headquartered in Ramstein Air Base, Germany. U.S. Marine Forces 
Africa and Special Operations Command Africa are both located 
in Stuttgart, Germany; and AF-Africa [U.S. Air Forces Africa] 
and NAVAF [U.S. Naval Forces Africa] are dual-hatted commands, 
with responsibility to EUCOM and NATO.
    You know, I spent my life in uniform, and I know how these 
things shuffle around a bit, but, boy, that does seem to be 
stretching just a little bit as we have tried to pull this 
AFRICOM together. So I am going to run out of time here, and I 
am not expecting you to actually respond to this, but I think 
it is important that we as a committee and OSD [Office of the 
Secretary of Defense] and the chiefs really take a look at 
these combatant commands in the light of much reduced resources 
and money and reduced forces, if that is really the way we 
ought to be organized.
    So thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Admiral Stavridis and General Ham, I want to thank you for 
appearing before the committee today and, of course, thank you 
for your service to our Nation. I know we have already talked a 
little bit about cybersecurity here today, and I would like to 
touch on that a little more.
    Admiral Stavridis, in past years several nations in the 
EUCOM AOR [area of responsibility] have been subject to 
sophisticated cyber attacks in conjunction with political and 
military conflicts. To what extent do you communicate with 
these countries on cyber threats and how has your communication 
with other countries changed as a result of the inclusion of 
cyber in the 2010 NATO strategic concept? And are there 
limitations on your ability to communicate with these and other 
EUCOM AOR countries on cybersecurity-related matters that need 
to be addressed?
    Admiral Stavridis. Sir, thank you for the question. Thank 
you very much, sir.
    You are absolutely correct. For example, Estonia, Latvia, 
Lithuania, and Georgia have all been subject to fairly severe 
cyber attacks within the last 5 to 8 years. We continue to see 
daily cyber attacks.
    We are--within the alliance, as I mentioned to 
Representative Thornberry, we have created a center--and I 
would encourage any of the Members to come and visit it--in 
Tallinn, Estonia--appropriate because Estonia was one of the 
countries that had suffered an attack--where we bring together 
our policy planners to look very specifically at the cyber 
challenges we are facing.
    We also have an operational component, as I mentioned, that 
is centered in my operational headquarters in Belgium.
    And then, thirdly--I didn't have a chance to mention 
earlier, and I think it is an important part of this debate--is 
the private-public connection here, which we of course wrestle 
with in the United States. The Europeans wrestle with it as 
well. Cyber crosses this border between purely military and 
purely civilian-type functionality.
    So all of those elements have to be a part of the mix in 
this conversation. I think we are pursuing all of those in 
NATO. As you said, the strategic concept drives us in this 
direction. We will have another statement along these lines at 
the May summit. It is an area where we continue to put 
additional resources. As I mentioned to Rep. Thornberry 
earlier, we have a long way to go.
    Mr. Langevin. Admiral, do you feel that EUCOM's lines of 
communication and responsibility are well defined with regards 
to operational cyber?
    Admiral Stavridis. I do. I think we have more thinking and 
talking to do within the U.S. military structure as to the 
precise authorities and responsibilities of our--what is 
currently a sub-unified command, CYBERCOM [Cyber Command], and 
what its relationship is to each of the combatant commands. It 
is a new area of endeavor. We are talking constantly with 
General Alexander, who is I think the superb head of U.S. Cyber 
Command. So this is kind of a work in progress, but it is again 
an area of security that we are all addressing.
    Mr. Langevin. Let me ask you about base energy security as 
it relates to cyber in particular. I have been very concerned 
over time about the capabilities of our bases here in the 
United States to withstand a cyber attack directed against 
outside supporting infrastructure such as the electric grid. 
Obviously, much of our critical infrastructure is owned and 
operated by the private sector, which we don't have 
responsibility per se to protect, and yet our bases are 
dependent on that critical infrastructure for its power and 
other needs. Have you examined the ability of overseas bases in 
your areas of responsibility to operate in the event of such an 
attack?
    And, General Ham, you can answer this question as well.
    Admiral Stavridis. We have; and I would be glad to provide 
some more information on that for the record, since we are 
quite short on time. The short answer is yes.
    Mr. Langevin. Very good.
    [The information referred to can be found in the Appendix 
on page 171.]
    General Ham. And the same for us. Principally at our base 
at Camp Lemonnier in Djibouti, we do frequent cyber 
vulnerability assessments.
    Mr. Langevin. Very good.
    Let me--since my time is running out, I will ask this 
question to the degree you can answer it but something to think 
about as well. Do you have a good understanding of the 
capabilities that people within your command have with respect 
to their knowledge and ability to use computers and operate in 
cyberspace?
    And I ask the question because it is not necessarily going 
to be the admirals, the commanders, captains or colonels that 
have maybe the most robust capabilities. It is probably going 
to be your newest enlisted people and officers who have grown 
up with computer skills and could be very effective in 
assisting you in your work, especially when the stuff hits the 
fan, if you know what I mean.
    The Chairman. The gentleman's time has expired.
    Mr. Coffman.
    Mr. Langevin. Thank you, gentlemen.
    Mr. Coffman. Thank you so much for your long and continued 
service to our country.
    First, Admiral, I believe do we have 28 NATO allies? Is 
that the number?
    Admiral Stavridis. Yes, sir, there are 28. Technically, the 
United States has 27 allies. There are a total of 28 nations in 
NATO, yes, sir.
    Admiral Stavridis. So out of the 27 allies to the United 
States within the North Atlantic Treaty Organization, how many 
are spending 2 percent of their gross domestic product on 
defense?
    Admiral Stavridis. It depends how you measure it. As few as 
four and as many as eight.
    Mr. Coffman. Could it be argued that, now, they have a lot 
of the same pressures that we have, where, you know, are they 
going to maintain a welfare state or are they going to cut 
their defense budget. And it seems to me--and I would like you 
to reflect on this--that they see perhaps the United States as 
the guarantor for their security. Maybe there is an 
overreliance on the United States as a NATO member where they 
feel like they can make those cuts in defense. Where we are 
spending about 4.7 percent of GDP on defense in the United 
States, they are spending less than 2 percent on most NATO 
countries. Is that an accurate statement?
    Admiral Stavridis. That is an accurate statement.
    And, again, as I mentioned to one of your colleagues 
earlier, it is a subject I frequently press on with the 
Europeans and I encourage our senior diplomatic and military 
officers to press with their interlocutors. We should continue 
to pressure the Europeans to spend more on defense.
    Mr. Coffman. So outside of those facilities we have in 
Europe to support the NATO operations in Afghanistan, outside 
of those bases to maintain our expeditionary forces such as I 
think we have a naval presence in Naples and Rota, Spain--if we 
still do--so the permanent bases, our support of NATO does not 
necessarily--I mean, we could articulate our support for NATO 
by joint military exercises. We don't necessarily--there is no 
requirement to have permanent military bases in Europe, is 
there not?
    Admiral Stavridis. There is no treaty requirement to have 
bases in Europe. That is a fair statement.
    Mr. Coffman. Very good. Let me just say, as a former 
soldier in the United States Army and later transferred to the 
Marine Corps, I served in the First Army Division during the 
height of the Cold War--and it was very cold there--as an 
infantry guy, mechanized infantry in the 1st Armored Division, 
where I felt that there was a need for part of that 400,000 
troops that you mentioned in Europe at that time, where there 
was truly a need for permanent military bases there, because we 
rotated back and forth to the Fulda Gap to have a presence 
there, where we were facing the Warsaw Pact forces just on the 
other side of the Czechoslovakian border where my unit used to 
rotate to the West German--then west German-Czechoslovakian 
border. So I think we ought to look at taking all of the BCTs 
out of there.
    General Ham, you mentioned the use of contractors for 
trainers in Africa. Is that the standard practice for AFRICOM?
    General Ham. It is. To be clear, sir, most of that training 
is under State Department authorities and resources, and it is 
largely under State contract that those contractors operate.
    Mr. Coffman. Is a central part of your mission then to 
train up African military forces that share our strategic 
interests?
    General Ham. It is. Yes, sir.
    Mr. Coffman. Then why is it necessary for us to go beyond 
that mission in terms of the Lord's Resistance Army? So instead 
of--where we are actually going out with them on active 
operations?
    General Ham. Sir, we do not go out with them on active 
operations. The law and policy place us there in a training and 
advisory role only.
    Mr. Coffman. Okay. Now, you are based in Europe. Is it you 
are not based in Africa for security reasons?
    General Ham. Sir, when Africa Command was formed in 2007-
2008, it split apart from European Command, which previously 
had responsibility for Africa; and they are and remain located 
in Stuttgart. So it made sense that there were facilities and 
people to remain in Stuttgart.
    Mr. Coffman. Let me just say I don't think it makes sense 
today. And I think Central Command is located in Florida. And I 
believe that your command, since it is not located in Africa, 
ought to be located in the United States as well.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Admiral, General, thank you for joining us today; and I 
deeply admire the professionalism and competence with which you 
all exhibited jointly in the Libyan operation.
    The new defense strategy and budget request, including 
force reductions in Europe, reflect the hard work and forward 
thinking of President Obama, our DOD civilian leaders, and our 
military commanders. But I must say that the last few hearings 
of this committee have caused me some amusement to watch the 
righteous indignation that is on display by some of the 
armchair quarterbacks on this committee.
    Some of us have never served before, and we are indignant 
about the 1-percent defense cut that has been offered up by the 
Obama administration pursuant to the Budget Control Act that 
was passed last year by this Republican-led House. So to show 
indignation about a 1-percent cut in growth and then claim that 
it is going to result--not claim but infer that it is going to 
result in a hollowed-out force is truly amusing to me.
    But I will ask you, Admiral, how have EUCOM and AFRICOM 
been able to partner to support each other's missions and find 
efficiencies?
    Admiral Stavridis. Thank you, sir.
    We are, I think, very strong partners. As Carter just 
mentioned, our headquarters are co-located. AFRICOM and EUCOM 
have a tradition of working together.
    Some of the specifics include the sharing of forces which 
are based in Europe but then come and do training and exercises 
in Africa with General Ham.
    We have shared nautical component commanders; and, thus, 
when we operate, for example, in a NATO and a U.S. way in the 
piracy operation we are constantly partnering there.
    We are also exploring ways that we can create efficiencies 
in intelligence and information sharing, and I believe we 
essentially share intelligence facilities now, and there may be 
some ways to do even more of that. This is a good idea because 
of the close connection between the European partners and the 
African continent itself.
    So there is a very natural partnership I think between the 
two of us, and I will let General Ham add anything he would 
like.
    General Ham. I would echo that, Congressman.
    The Europeans, both through NATO and the European Union, 
are heavily invested in security matters in Africa; and it is 
our strong relationship and partnership with U.S. European 
Command that allows us to have access and meaningful dialogue 
in the planning and coordination of those activities.
    Admiral Stavridis mentioned earlier today the Mediterranean 
dialogue in which the North African countries participate 
because they see themselves--they are partly African, they are 
partly Arab, they are partly Mediterranean; and these hard 
lines that we draw as boundaries between combatant commands, 
the nations, of course, don't abide by those.
    Mr. Johnson. Thank you, General.
    Admiral, how will the Administration's newly released 
defense strategy change the way that you do business at EUCOM?
    Admiral Stavridis. In a sense, it will not dramatically 
change what we do. As I have categorized the new strategy, sir, 
to our European partners, who often ask about it, I think the 
strategy reflects a sense of challenge for the United States in 
the Pacific and in the Middle East. It reflects strategic 
opportunities in places like Latin America, the Caribbean, and 
AFRICOM; and I think it reflects enduring strategic 
partnerships with Europe. So, in that sense, for European 
Command, I don't think there will be dramatic changes.
    Mr. Johnson. Thank you, and I will yield back.
    Mr. Coffman. [Presiding.] Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Stavridis, General Ham, thank you so much for 
joining us today. We appreciate your service to our Nation.
    General Ham, I want to follow up a little bit. You talked 
about those innovative partnerships that are being developed. 
Obviously, in Africa, you are looking to build those 
partnerships with those nations in Africa. I know that is an 
ongoing effort there.
    I know also there are other competing interests in the 
region looking to develop those partnerships. I wanted to get 
your perspective on how you believe those partnerships are 
perceived by those African nations with that partnership-
building. How are our partnership efforts being perceived by 
other countries, such as China? Where do you believe that they 
will be for us strategically in the next 5 to 10 years? And do 
you see the role and mission of AFRICOM moving more towards 
those partnership-building efforts, those efforts versus a more 
strategic or more kinetic relationship there?
    I know we have some Special Operations Forces in the 
region. But do you see AFRICOM's role there more on the side of 
partnership building in the region in the next, let's say, next 
5 to 10 years?
    General Ham. Sir, I do. While we obviously always want to 
preserve the capability to conduct whatever military operations 
might be necessary, it is far better if we can focus our 
efforts on preventive measures by, with, and through our 
African partners. I think that is what they expect from us, it 
is what they desire from us, and we try to head in that 
direction.
    One of the challenges that I have encountered--I have been 
there just about a year now--is how do we cooperate more 
closely with other nations whose security interests align with 
our own so that as we deal with a particular African country or 
with a regional organization of the African Union that we do so 
in a much more collaborative and synchronized manner? I think 
that is an area in which we can improve.
    Similarly, I think we should look for opportunities with 
nontraditional partners, such as China, to find those areas 
where our interests do align and look for ways in which we 
might increase our cooperation.
    Mr. Wittman. Thank you, General Ham.
    Admiral Stavridis, I wanted to ask you, you talked a little 
bit about this shifting of strategy there across the globe. And 
one of those shifts is the movement of four Arleigh Burke class 
destroyers to Rota, Spain, and I wanted to get your perspective 
strategically what that means. What do you see, as a combatant 
commander, as the primary use for those, and how do you see 
that as being indicative of the strategic shift that this 
Nation is placing in the way it defends this country's 
interests?
    Admiral Stavridis. Thank you, sir.
    Primarily, the destroyers are going forward in order to be 
the backbone of missile defense. That is the primary 
functionality.
    However, these are marvelous ships. I was lucky enough to 
command one several years ago. I was a commodore of a squadron 
of six of them. I know the ships well. They are the ultimate 
multimission-capable ship, with anti-submarine, anti-air, anti-
surface [capabilities], wonderful to partner with other 
nations. So they will be a very robust addition to our European 
capability set.
    They will also very much be part of General Ham's world. 
Because, as I mentioned before, the naval commander, the four-
star Admiral who will have charge of these ships reports both 
to me and to General Ham.
    So these are ships that you will see off the Gulf of 
Guinea. They will be operating in counterpiracy off the East 
Coast of Africa. They will be in the Mediterranean. They will 
be up north. So I think that their home porting overseas 
reflects the ongoing engagement not only in Europe but also in 
the African theater as well, and I think it is a very powerful 
statement of that.
    Mr. Wittman. Another question. I know that EUCOM is very 
involved in joint operations--joint training operations with 
Israel. And, as we know, with the instability in that 
particular region of the world, there has been a lot of 
increased interest, obviously, in Israel and their interests 
and what they have to deal with in the region. Can you tell me 
where you see EUCOM's relationship and cooperation with Israel 
going in the months and years to come?
    Admiral Stavridis. I think it will continue to be extremely 
strong. It is based on exercises, information-sharing, 
intelligence-sharing, very much on the sale of U.S. defense 
systems, on technology-sharing. Missile defense is certainly an 
important component of it.
    And, finally, I would say, as always, personal contact 
trumps everything in the sense that the key leader engagements, 
the personal relationships up and down will continue to be 
extremely robust going forward.
    Thank you.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Coffman. Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman.
    I guess I could expand on the question that was just asked 
as it relates to Israel. This is obviously a concern of many 
right now, not just in this country but all across the world. 
And I guess I would ask if there are any gaps or areas of 
concern as we discuss your role in the relationship with 
Israel.
    Admiral Stavridis. I think, ma'am, that we have a very high 
level of commitment and a very high level of engagement with 
Israel. We have ongoing discussions with them constantly about 
their needs, and I think they would say they are satisfied. I 
feel like we are providing them what is appropriate as we stand 
with them in this time. And, as you say, it is a very nervous 
time for Israel because of the Arab Spring and the strategic 
circumstances surrounding all of that.
    Mrs. Roby. Do you want to comment, to the extent you can in 
this setting, about the concerns regarding the Iranian nuclear 
development and----
    Admiral Stavridis. I think those are probably questions 
that would best be done in a closed session.
    I can comment in a context of for the record in terms of 
support to Israel in that context.
    Mrs. Roby. Sure. And I thank you for that.
    [The information referred to can be found in the Appendix 
on page 172.]
    Mrs. Roby. And then, sir, I just would ask you if you would 
just talk about the AFRICOM's current location, how that really 
plays into the cost of what you are responsible for and what 
you have to do and what potential negative impacts there are 
related to that as we move through our concerned fiscal times.
    General Ham. I don't really see, ma'am, any negative 
consequences to our current stationing. We have good 
facilities. We are well supported. We are relatively proximate, 
as proximate as anything can be to the African continent 
without incurring the costs of building a headquarters on the 
continent, which I think would not be wise for a host of 
reasons. At the top of that list would be fiscal issues.
    The Congress has required the Department of Defense to 
conduct a review and report back in April, a study to look at 
the basing of the Africa Command headquarters. The Department 
of Defense is conducting that review through the Cost 
Assessment and Program Evaluation Office of the Office of the 
Secretary of Defense. The review is not complete, but that is 
ongoing.
    Mrs. Roby. Okay. Well, let me just--I should have said this 
on the front end as well--thank you for both your tremendous 
service to our country, and we certainly appreciate you being 
before this committee today to answer all of our concerns. 
Thank you very much.
    And, Mr. Chairman, I yield back.
    Mr. Coffman. Thank you, Mrs. Roby.
    Mr. Gibson of New York.
    Mr. Gibson. Thank you, Mr. Chairman.
    And I thank the panelists for being here today and also for 
your service, your long and dedicated, distinguished service. 
And our thoughts and prayers are with all the troopers and 
their families from your commands.
    And I apologize for being late. I was at a hearing on the 
Committee on Agriculture. So if this question has been asked 
before, I do apologize for that.
    But I would like to have described for me the timeline, 
some of the specifics with regard to the movement of two BCTs 
from Europe back to the United States. And then, Admiral, to 
hear your perspective, I understand we are going to now have 
deployments, exercises to help strengthen our relationship with 
our allies, and hear your vision on that. And, then, finally 
what the reaction is from our allies with all this.
    Thanks.
    Admiral Stavridis. Thank you, sir, and thanks for your 
service as well.
    And I would tell you that we are going to take two heavy 
BCTs out of Germany. It will be the 170th and the 172nd. They 
are coming out of Baumholder and Schweinfurt, and they are 
scheduled to go out in 2013 and 2014 respectively.
    We are also going to take out one A-10 squadron, the 81st, 
out of Spangdahlem, and then the 603rd Air Control Squadron, 
small unit out of Aviano.
    So when you put all that in the aggregate, it will all be 
done kind of between now and 2014; and it will be about 12,500 
people coming out of Europe. That represents about a 15-percent 
decrement in the number of uniform personnel in Europe.
    Thank you for asking about the European reaction, because 
that is a very pertinent question. I have been pleasantly 
surprised to find that the Europeans understand this. They find 
it is sensible. They recognize that we are facing budget cuts 
here, just like they are; and so they are accepting of this in 
a very straightforward way.
    In terms of mitigating the reduction of the two BCTs, what 
we are going to do is the Army has committed to identify a BCT 
here in the United States that would rotationally come through 
Europe. So, in other words, instead of being a static BCT 
essentially parked in Germany, this would be a BCT that could 
rotate its battalions one time into eastern Europe, one time 
into the Balkans, one time into the Baltics, as well as other 
places that U.S. European Command might be tasked to operate.
    So that is sort of the outline and the timeline as I see it 
now, sir.
    Mr. Gibson. Very good.
    And in the process of planning was a course of action 
looked at that took all four BCTs, rotated them back to the 
States and then looked to use the same model in terms of 
sustaining relationships and providing capabilities?
    Admiral Stavridis. Over the time I have been at EUCOM as 
the European commander we have looked at all the options you 
can imagine, with BCTs, squadrons. And of course a lot of this 
is deeply involved with the Services. I am not the sole voice 
in this at all. As you appreciate fully, sir, the Army has 
views about all this, the Air Force has views. So it is part of 
an ongoing conversation. But it is fair to say we have looked 
at all the options.
    Mr. Gibson. Thank you. Very informative. I look forward to 
at some point sitting down and learning more about how all that 
analysis went, and I just want to conclude by once again 
thanking you for your service and for being here today.
    I yield back, Mr. Chairman.
    Mr. Coffman. Thank you, Mr. Gibson.
    Mr. Franks of Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And I always want to take the same opportunity to express 
my own personal gratitude for your service to the country. I 
have 3-year-old twins, and I know that their futures are going 
to be greatly enhanced by the commitment of your lives. And I 
really continue to believe that people like you are the noblest 
figures in our society.
    With that said, you know, it is our responsibility on this 
committee, more than anything else, to make sure that we try to 
have insight and see to the future of this country in terms of 
our national security. And you are the guys that get to try to 
flesh all that out and make it work, and we try to create the 
kind of resource equation that will empower you in the best 
way. So every once in a while I ask questions just a little 
differently and kind of turn around and ask you to tell me what 
you think the most important thing this Congress could do to 
enhance your capability to defend this country and the cause of 
freedom in the world.
    I mean, that is a really broad question. But, in other 
words, your greatest need, or perhaps that you would consider 
is an unmet or an unaddressed issue that we need to consider 
more carefully or something you see coming down the road. What 
is the thing that you think that we should be focusing on to 
empower you to do those noble things that you have dedicated 
your life to doing?
    Admiral Stavridis. Well, I would, frankly, start by saying 
that Congress is already doing it, and that is to fully 
resource--in fact here on this placard in front of me it says, 
``The Congress shall have power to raise and support armies, 
provide and maintain a navy.'' You know these words better than 
anybody.
    Mr. Franks. I happen to have the privilege of being the 
chairman of the Constitution Subcommittee in this Congress, so 
it means a lot to me, actually.
    Admiral Stavridis. Well, I have felt, in my 6 years as a 
combatant commander, well supported by Congress.
    I will pick up one thread, and maybe Carter has a different 
site picture on how to answer the question. I will say one less 
traditional thing perhaps.
    But I would say when Congress comes to the field to visit 
our troops, when you come on a congressional trip to meet with 
high-level leaders, when you engage with your counterparts in 
other parliaments, that is tremendously beneficial to me in 
U.S. European Command, when you come to EUCOM. So I know it is 
always hard for all of you to get out of Washington. But when 
you can find time to do that, both the ``visit the troops'' 
piece but also the high-level engagement with counterparts, 
that is tremendously helpful. So I would offer that as one 
thought.
    Carter?
    General Ham. Sir, I would say, first of all, I think 
managing 3-year-old twins is probably harder than my job. I 
don't envy you that.
    The foundation upon which everything we do is built is the 
All-Volunteer Force, and those men and women and their families 
who make a conscious decision to serve our Nation is what 
enables us to do the things that we need to do. Now, the Force 
might be a little bit smaller as we head into the future, but I 
think it is vitally important that all of us in leadership 
positions--and certainly I would ask this of Congress--to make 
sure that we have programs in place that continue to attract 
and retain the very bright, innovative, imaginative, committed 
servicemembers that we need to address the Nation's security 
needs well into the future.
    Mr. Franks. Tell me, would either of you have any reactions 
to the challenge that some of us see that the sequester 
represents to the military? That is probably not the fairest 
question to ask of you in the world, because I know how you 
guys are. You are willing to salute and charge off with the 
proverbial squirt gun. But that is not where some of us are. We 
want to make sure you are more capable--or more armed, more 
fully equipped, and trained than that.
    But let me ask you, what does the sequester represent, in 
your mind, to your operation?
    Admiral Stavridis. Well, first, I would say that the 
Secretary of Defense and the Chairman of the Joint Chiefs have 
spoken very directly on this and used a wide variety of 
expressions, to include devastating; and I would simply say 
that I would agree with their assessment in terms of the macro 
for the Department.
    In terms of U.S. European Command if sequestration were to 
kick in, obviously, we would have less ability to conduct our 
operations, less ability to do the military construction that 
we need to do, less ability to do the building of partnership 
capacity to support our allies to come to Afghanistan and help 
us win in that very challenging world. Across the spectrum, it 
would be an extremely challenging scenario for U.S. European 
Command.
    Mr. Franks. Well, my time has gone here, so thank you, 
gentlemen; and thank you, Mr. Chairman.
    Mr. Coffman. Thank you, Mr. Franks.
    Mr. Forbes from Virginia.
    Mr. Forbes. Gentlemen, thank you again; and I do echo what 
everyone has said about appreciation for your service to the 
country.
    Admiral, you mentioned the fact that we have resourced to 
the strategy. But if the strategy is not correct then we are 
not doing what we need to, to defend the country. And many of 
us have a number of questions, and I would like to just pursue 
some of the questions I asked you earlier.
    Specifically, you indicated to me that the combatant 
commanders had about 6 months to come together and work on the 
new strategic guidance. Is that pretty accurate?
    Admiral Stavridis. Yes, sir.
    Mr. Forbes. And you worked in a combination of ways, 
through technology and meetings together, I would assume?
    Admiral Stavridis. Yes, sir.
    Mr. Forbes. A number of different ways.
    On that 6-month period of time do you just happen to recall 
when that began? It is a pretty big-deal item, so I imagine 
that would--just the month.
    Admiral Stavridis. Carter, do you remember when we had our 
first get-together on all that?
    General Ham. Sir, my recollection was March; and that is 
because I became the Commander of U.S. Africa Command in March. 
And shortly after that we had the first meeting that I am aware 
of with the Secretary of Defense and Chairman.
    Mr. Forbes. So it would be fair to say sometime around 
March or April of 2011?
    Admiral Stavridis. I think that is right.
    Mr. Forbes. In that ballpark?
    Admiral Stavridis. Yes, sir.
    Mr. Forbes. And it lasted for about 6 months?
    Admiral Stavridis. Probably a little longer, actually, if 
you think about it, since we ran from March until--basically, I 
think our last meeting was December where we really put it all 
to bed. So probably closer to 7 or 8 months.
    Mr. Forbes. And at what time again--again, not to narrow it 
down, but towards the beginning of the process, the middle of 
the process, the end of the process, were you ever told 
formally this is the number that we have got to work with? In 
other words, I know you said you were looking at basically $500 
billion in cuts. But I just want to make sure we are not all 
walking in as combatant commanders and saying, well, I am 
relying on what I read in the Washington Post or----
    Admiral Stavridis. No, not at all.
    Mr. Forbes. But at some point in time I would take it 
someone came in to you and formally said we have got to have a 
strategic guidance that is locked into about $500 billion or 
$487 billion--whatever the figure was--of cuts. Is that fair? 
Did that happen?
    Admiral Stavridis. Yes, it did.
    And, again, when I responded earlier that we didn't have a 
number, I thought what you were pressing on was, did U.S. 
European Command have a specific slice of that or a piece of 
that? And we did not.
    Mr. Forbes. No, no, but, overall, for your meetings and 
putting together your input for the strategic guidance, were 
you ever formally given a number in some capacity at all?
    Admiral Stavridis. I would say we were not kind of given a 
formal number, but I think in each of the meetings there was a 
general presentation that would give us a sense, broadly, of 
where the current debate was in terms of the budget cut.
    Mr. Forbes. And, again, this is important to us in knowing 
how much of this is security driven and how much is budget 
driven. I just can't comprehend how--and the reason I say this 
is the Secretary of Defense said he wouldn't have picked $487 
billion. He would have picked another number. He thought that 
was too high. He said that in testimony. He said it privately.
    So at some point in time somebody had to walk in and say we 
have got to reach this goal of $500 billion of cuts or $487 
[billion]. You don't recall anybody ever coming in with that 
figure and saying we have got to shoot for this?
    Admiral Stavridis. I think in each of our meetings we would 
have a presentation that kind of talked about the budget and 
where the budget situation was. But you know, Congressman, when 
you do strategy, you are trying to combine ways, means, and 
ends. You are trying to have goals----
    Mr. Forbes. The reason I say that, General Amos, I think, 
the other day said, if sequestration came down--what I think 
Mr. Franks was saying--we would have to do a whole different 
strategy. So if we had $500 billion more cuts, it would be a 
hugely different strategy than if we had $487 billion in cuts.
    Admiral Stavridis. I would say that any strategy that 
anybody has, including in our personal lives when we try to put 
a financial strategy together, that if the resources change, 
then the strategic picture will change.
    Mr. Forbes. So wouldn't it be important for us, in 
developing the strategy, to know what the resources were before 
we started making it?
    Admiral Stavridis. I think that is fair. I think it is also 
important that we understand the geopolitical situation.
    Mr. Forbes. I fully agree with that.
    Admiral Stavridis. I think it is all those things put 
together.
    Mr. Forbes. I absolutely agree. The only point I am saying 
is I am having a hard time understanding whether you guys ever 
knew what those resources were to begin with or not. Because 
you are saying you just had kind of an understanding. They were 
talking about it. But nobody ever came down and said, this is 
the world we are living in, this $487 billion cut?
    Admiral Stavridis. Congressman, again, at each of our 
meetings, we would get a very short sort of sense of the 
budget, but the vast majority of our time was devoted to the 
geopolitical structure.
    Mr. Forbes. In that short sense, did somebody give you a 
number at all?
    Admiral Stavridis. We saw many numbers in the course of 
that and many numbers of aircraft and ships and dollars and the 
geopolitics, and all those things need to kind of come together 
if you are going to create a coherent strategy.
    The Chairman. [Presiding.] Thank you, Mr. Forbes.
    Mr. Johnson.
    Mr. Johnson. Thank you for allowing me to get an extra 
question in, Mr. Chairman.
    I will ask this of General Ham. Last week, Secretary 
Clinton attended the London conference on Somalia. What do you 
think was the result of the conference and what are the 
implications for Somalia's future?
    General Ham. Congressman, I think the London conference was 
a very significant and worthwhile step forward. Because it 
brought together I think about 40 different nations, to include 
the leadership of the Somalian Transitional Federal Government, 
to address the near, mid, and longer term needs of Somalia.
    There has been I think very much a focus on the security 
aspects in Somalia and not so much focus on the governance and 
developmental aspects that would follow the establishment of a 
sufficiently secure environment; and I think this London 
conference really started to address, in a very meaningful way, 
how the international community will seek to pull together to 
assist the Somali people in forming a government of their 
choice. So it is too soon to really tell, but I think all the 
indications are quite positive coming out of the London 
conference.
    Admiral Stavridis. If I could just add on that, because 
many of the participants were European, and I think the United 
Kingdom in particular had a real driving role in this.
    I, too, am cautiously optimistic that this is the right 
approach for the international community to begin to focus on 
this because this area of the world could have potentially 
negative impacts in terms of transnational threat. And I 
believe that we are on the right course, but we have got a lot 
of work to do in that region.
    Mr. Johnson. The leadership of the African Union, what is 
their involvement in that process?
    General Ham. The African Union has a very significant role 
in Somalia, especially at present with the African Union 
mission in Somalia which is primarily focused on the security 
line of operation, as we would----
    But the African Union, with all of its members pulling 
together, again, to address not only security but governance 
and developmental needs in Somalia in the whole of East Africa 
I think is a very significant component of the international 
community's effort to help Somalia stand up once again as an 
independent and cohesive nation.
    Mr. Johnson. Thank you.
    And, General, one last question. As you are probably aware, 
undercover journalists with Al Jazeera English recently 
documented high-level corruption in the office of Sierra 
Leone's vice president; and it appears on tape that his aides 
accepted bribes on his behalf in exchange for illegal logging 
permits. The evidence was so damning that 19 Members of 
Congress have urged that the U.S. Government push Sierra Leone 
to hold the perpetrators responsible.
    General, Sierra Leone is an important security partner. 
Would you please relay to your counterparts in Sierra Leone 
that Members of Congress are still deeply concerned about this 
matter? And will you please explain to the committee how high-
level corruption in partner countries make security 
partnerships, counternarcotics cooperation, and security 
assistance more difficult?
    General Ham. I will, sir. And your comment is timely, as 
Sierra Leone has offered to the African Union mission in 
Somalia a troop contingent, which would be the first out-of-
region force to join the African Union mission in Somalia. And 
certainly the reports and indications of corruption undermine 
that overall effort.
    Mr. Johnson. All right. Thank you.
    The Chairman. Thank you, Mr. Johnson.
    And I would like to thank the witness for your testimony 
today. I really appreciate it.
    The hearing is adjourned.
    [Whereupon, at 12:05 p.m., the committee was adjourned.]



=======================================================================


                            A P P E N D I X

                           February 29, 2012

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 29, 2012

=======================================================================


              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2013 National Defense Authorization

               Budget Requests from U.S. European Command

                        and U.S. Africa Command

                           February 29, 2012

    The last year has been very busy for both of your commands, 
from operations in Libya to the current tensions with Israel 
and Iran, and the recent announcements of force posture changes 
to our U.S. forces deployed in Europe.
    Admiral Stavridis, for the last 2 years before this 
committee, you've strongly advocated for the presence of four 
Army brigade combat teams. But 2 weeks ago, the Defense 
Department announced its decision to withdraw the two heavy 
BCTs from Europe. You've talked about the ``ready, proven, 
mature basing infrastructure'' in Europe that allows the U.S. 
military to rapidly respond to crises in the world's most 
likely hotspots. I'm worried about the decisions being made for 
the ``sake of efficiencies and budget'' that change our force 
posture in Europe but neglect our commitment to regional allies 
and stability.
    I also want to highlight my continuing concerns about 
President Obama's missile defense strategy. It appears the 
United States is spending $4 on regional missile defense, like 
the European Phased Adaptive Approach, for every $1 it is 
spending on homeland defense. What's more, European missile 
defense will be a ``national contribution'' to NATO, meaning 
the cost will be borne entirely by the U.S. at a time when most 
of NATO is failing to meet even the 2% of GDP threshold for 
NATO membership.
    I'm also concerned that the new strategy continues to 
provide sufficient resources to EUCOM for the defense of 
Israel, given the growing threats to Israel and its security. 
It's important the United States upholds our pledge to defend 
one of our most reliable and loyal allies from threats to their 
security and existence.
    General Ham, although operations in Libya concluded last 
October, there remain significant challenges to stability and 
security on the African continent. While I am glad that brutal 
Libyan dictator Qadhafi is gone, the country is still 
transitioning. A stable peace may not come for some time. 
Meanwhile, violent extremist organizations continue to be a 
significant concern in Africa. The attacks by Boko Haram in 
Nigeria, especially against Christians, are extremely 
worrisome. Somalia remains a continuing source of instability, 
still hosting Al Qaeda and its affiliated al-Shabaab terrorist 
organization. The increasing coordination between Al Qaeda and 
al-Shabaab is a dangerous development and a reminder of the 
threat posed by radicalism, terrorism, and ungoverned spaces. 
Piracy remains a serious threat in the Gulf of Aden, 
threatening commercial shipping in a major sea lane. The recent 
Navy SEAL operation rescuing two hostages, including American 
Jessica Buchanan, was good news. But we must find a way to 
prevent these violent, criminal acts of piracy and terrorism 
from happening in the first place. Nevertheless, the new 
defense strategy appears to emphasize presence and engagement 
in Asia at the expense of other regions, including Africa. We 
look forward to your testimony shedding additional light on 
these matters.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2013 National Defense Authorization

               Budget Requests from U.S. European Command

                        and U.S. Africa Command

                           February 29, 2012

    Mr. Chairman, thank you for holding this hearing today. I 
would like to join Chairman McKeon in welcoming Admiral 
Stavridis and General Ham. We appreciate your time and look 
forward to hearing your thoughts on the budget requests for 
your respective commands.
    Earlier this year, the President released the findings of a 
strategic review, which clearly articulated the global threat 
environment, and presented a broad strategy to address those 
threats moving forward. This strategic review appropriately 
places a renewed focus on the critically important Asia-Pacific 
region, but our regional commands will continue to play a vital 
role as we work to confront national security threats wherever 
they arise.
    Today, we will take a close look at the posture of two 
important regional commands: U.S. European Command and U.S. 
Africa Command.
    First, let me address U.S. European Command. The U.S. 
European Command remains an essential part of U.S. and 
international security. Looking beyond the military operations 
in Afghanistan, the nuclear programs in North Korea and Iran 
and the risk of the proliferation of nuclear, biological and 
chemical weapons to terrorists remain grave threats to U.S. and 
international security. We are particularly concerned about the 
recent escalating tensions with regard to Iran and the impact 
for EUCOM.
    Now, let me address AFRICOM. Recently, AFRICOM played a key 
role in our efforts to oust a brutal dictator and support the 
aspirations of the Libyan people. Moving forward, it is clear 
that stability in Africa is in the United States' national 
interest. Supporting justice, human rights, and the secure 
access of goods and services to the world markets is imperative 
to encouraging stability, but even more pressing is the variety 
of violent extremist organizations aligning with Al Qaeda: al-
Shabaab in Somalia being the most dangerous, but also Al Qaeda 
in the Magreb and Boko Haran in Nigeria. Their desire to do 
serious damage to our Nation, our friends, and our partners is 
real. Additionally, our efforts assisting our partners in going 
after the Lord's Resistance Army will bring stability to a 
resource rich part of the country that has known enormous 
bloodshed and strife for too many years. AFRICOM will play a 
central role as we continue to emphasize the importance of 
building the capacity of our African partners, who are also 
endangered, to deal with these mutual threats.
    In closing, I would like to remind our Committee that 
overall, the defense budget is fully consistent with the 
funding levels set by the Budget Control Act passed by 
Congress. Although I did not support this act, many members of 
the House Armed Services Committee did, Congress passed it, and 
the Department of Defense has submitted a budget that complies 
with the congressionally mandated funding levels.
     I want to thank the witnesses again and I look forward to 
hearing their testimony.
[GRAPHIC] [TIFF OMITTED] 73432.001

[GRAPHIC] [TIFF OMITTED] 73432.002

[GRAPHIC] [TIFF OMITTED] 73432.003

[GRAPHIC] [TIFF OMITTED] 73432.004

[GRAPHIC] [TIFF OMITTED] 73432.005

[GRAPHIC] [TIFF OMITTED] 73432.006

[GRAPHIC] [TIFF OMITTED] 73432.007

[GRAPHIC] [TIFF OMITTED] 73432.008

[GRAPHIC] [TIFF OMITTED] 73432.009

[GRAPHIC] [TIFF OMITTED] 73432.010

[GRAPHIC] [TIFF OMITTED] 73432.011

[GRAPHIC] [TIFF OMITTED] 73432.012

[GRAPHIC] [TIFF OMITTED] 73432.013

[GRAPHIC] [TIFF OMITTED] 73432.014

[GRAPHIC] [TIFF OMITTED] 73432.015

[GRAPHIC] [TIFF OMITTED] 73432.016

[GRAPHIC] [TIFF OMITTED] 73432.017

[GRAPHIC] [TIFF OMITTED] 73432.018

[GRAPHIC] [TIFF OMITTED] 73432.019

[GRAPHIC] [TIFF OMITTED] 73432.020

[GRAPHIC] [TIFF OMITTED] 73432.021

[GRAPHIC] [TIFF OMITTED] 73432.022

[GRAPHIC] [TIFF OMITTED] 73432.023

[GRAPHIC] [TIFF OMITTED] 73432.024

[GRAPHIC] [TIFF OMITTED] 73432.025

[GRAPHIC] [TIFF OMITTED] 73432.026

[GRAPHIC] [TIFF OMITTED] 73432.027

[GRAPHIC] [TIFF OMITTED] 73432.028

[GRAPHIC] [TIFF OMITTED] 73432.029

[GRAPHIC] [TIFF OMITTED] 73432.030

[GRAPHIC] [TIFF OMITTED] 73432.031

[GRAPHIC] [TIFF OMITTED] 73432.032

[GRAPHIC] [TIFF OMITTED] 73432.033

[GRAPHIC] [TIFF OMITTED] 73432.034

[GRAPHIC] [TIFF OMITTED] 73432.035

[GRAPHIC] [TIFF OMITTED] 73432.036

[GRAPHIC] [TIFF OMITTED] 73432.037

[GRAPHIC] [TIFF OMITTED] 73432.038

[GRAPHIC] [TIFF OMITTED] 73432.039

[GRAPHIC] [TIFF OMITTED] 73432.040

[GRAPHIC] [TIFF OMITTED] 73432.041

[GRAPHIC] [TIFF OMITTED] 73432.042

[GRAPHIC] [TIFF OMITTED] 73432.043

[GRAPHIC] [TIFF OMITTED] 73432.044

[GRAPHIC] [TIFF OMITTED] 73432.045

[GRAPHIC] [TIFF OMITTED] 73432.046

[GRAPHIC] [TIFF OMITTED] 73432.047

[GRAPHIC] [TIFF OMITTED] 73432.048

[GRAPHIC] [TIFF OMITTED] 73432.049

[GRAPHIC] [TIFF OMITTED] 73432.050

[GRAPHIC] [TIFF OMITTED] 73432.051

[GRAPHIC] [TIFF OMITTED] 73432.052

[GRAPHIC] [TIFF OMITTED] 73432.053

[GRAPHIC] [TIFF OMITTED] 73432.054

[GRAPHIC] [TIFF OMITTED] 73432.055

[GRAPHIC] [TIFF OMITTED] 73432.056

[GRAPHIC] [TIFF OMITTED] 73432.057

[GRAPHIC] [TIFF OMITTED] 73432.058

[GRAPHIC] [TIFF OMITTED] 73432.059

[GRAPHIC] [TIFF OMITTED] 73432.060

[GRAPHIC] [TIFF OMITTED] 73432.061

[GRAPHIC] [TIFF OMITTED] 73432.062

[GRAPHIC] [TIFF OMITTED] 73432.063

[GRAPHIC] [TIFF OMITTED] 73432.064

[GRAPHIC] [TIFF OMITTED] 73432.065

[GRAPHIC] [TIFF OMITTED] 73432.066

[GRAPHIC] [TIFF OMITTED] 73432.067

[GRAPHIC] [TIFF OMITTED] 73432.068

[GRAPHIC] [TIFF OMITTED] 73432.069

[GRAPHIC] [TIFF OMITTED] 73432.070

[GRAPHIC] [TIFF OMITTED] 73432.071

[GRAPHIC] [TIFF OMITTED] 73432.072

[GRAPHIC] [TIFF OMITTED] 73432.073

[GRAPHIC] [TIFF OMITTED] 73432.074

[GRAPHIC] [TIFF OMITTED] 73432.075

[GRAPHIC] [TIFF OMITTED] 73432.076

[GRAPHIC] [TIFF OMITTED] 73432.077

[GRAPHIC] [TIFF OMITTED] 73432.078

[GRAPHIC] [TIFF OMITTED] 73432.079

[GRAPHIC] [TIFF OMITTED] 73432.080

[GRAPHIC] [TIFF OMITTED] 73432.081

[GRAPHIC] [TIFF OMITTED] 73432.082

[GRAPHIC] [TIFF OMITTED] 73432.083

[GRAPHIC] [TIFF OMITTED] 73432.084

[GRAPHIC] [TIFF OMITTED] 73432.085

[GRAPHIC] [TIFF OMITTED] 73432.086

[GRAPHIC] [TIFF OMITTED] 73432.087

[GRAPHIC] [TIFF OMITTED] 73432.088

[GRAPHIC] [TIFF OMITTED] 73432.089

[GRAPHIC] [TIFF OMITTED] 73432.090

[GRAPHIC] [TIFF OMITTED] 73432.091

[GRAPHIC] [TIFF OMITTED] 73432.092

[GRAPHIC] [TIFF OMITTED] 73432.093

[GRAPHIC] [TIFF OMITTED] 73432.094

[GRAPHIC] [TIFF OMITTED] 73432.095

[GRAPHIC] [TIFF OMITTED] 73432.096

[GRAPHIC] [TIFF OMITTED] 73432.097

[GRAPHIC] [TIFF OMITTED] 73432.098

[GRAPHIC] [TIFF OMITTED] 73432.099

[GRAPHIC] [TIFF OMITTED] 73432.100

[GRAPHIC] [TIFF OMITTED] 73432.101

[GRAPHIC] [TIFF OMITTED] 73432.102

[GRAPHIC] [TIFF OMITTED] 73432.103

[GRAPHIC] [TIFF OMITTED] 73432.104

[GRAPHIC] [TIFF OMITTED] 73432.105

[GRAPHIC] [TIFF OMITTED] 73432.106

[GRAPHIC] [TIFF OMITTED] 73432.107

[GRAPHIC] [TIFF OMITTED] 73432.108

[GRAPHIC] [TIFF OMITTED] 73432.109

[GRAPHIC] [TIFF OMITTED] 73432.110

[GRAPHIC] [TIFF OMITTED] 73432.111

[GRAPHIC] [TIFF OMITTED] 73432.112

[GRAPHIC] [TIFF OMITTED] 73432.113

[GRAPHIC] [TIFF OMITTED] 73432.114

[GRAPHIC] [TIFF OMITTED] 73432.115

[GRAPHIC] [TIFF OMITTED] 73432.116

[GRAPHIC] [TIFF OMITTED] 73432.117

[GRAPHIC] [TIFF OMITTED] 73432.118

[GRAPHIC] [TIFF OMITTED] 73432.119

[GRAPHIC] [TIFF OMITTED] 73432.120

[GRAPHIC] [TIFF OMITTED] 73432.121

[GRAPHIC] [TIFF OMITTED] 73432.122

?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 29, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 73432.123
    
    [GRAPHIC] [TIFF OMITTED] 73432.124
    
    [GRAPHIC] [TIFF OMITTED] 73432.125
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 29, 2012

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    Admiral Stavridis. The details for this question come down to 
Continuity of Operations Planning (COOP). The key phrase in the 
question is ``to operate'' which means we have examined how we will 
ensure that critical Warfighting missions will continue to function if 
the Host Nation grid or other critical infrastructure is successfully 
attacked. This is a Command/Operations task--the Warfighting Commander 
will ultimately decide how resources (e.g. fuel, power generation, 
communications assets) will be allocated to support those Base missions 
determined to be most important. Providing more detailed information on 
each installation would require a USEUCOM tasking to each Component 
asking the Component to articulate how they would COOP critical 
capabilities.
    Every installation/command has a COOP/disaster plan to deal with 
these situations. Additionally, all service components have reach back 
capabilities for technical expertise and limited equipment. [See page 
26.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. TURNER
    Admiral Stavridis.
    Smart Defense

    The Smart Defense initiative aims to assure continued capability 
development commensurate with global security challenges and NATO's 
Strategic Concept in a resources constrained situation. Smart Defense 
is based on the principles of affordability, availability, national and 
NATO priority alignment and complementarity.
    A key element of Smart Defense is that all projects are ``owned'' 
and implemented by member nations, with NATO acting in a supporting and 
coordinating role.
    Joint Intelligence, Surveillance, and Reconnaissance (JISR), 
Ballistic Missile Defense (BMD), and Air Policing have been selected as 
flagship initiatives for the NATO Summit Meeting of Heads of State and 
Government (Chicago Summit) in May 2012. The Chicago Summit is meant to 
highlight a starting point for Smart Defense, to demonstrate the 
principle and to build confidence for additional projects.

    Compatibility of Air Policing, Helicopter Maintenance, Maritime 
Patrol Aircraft, Joint Intelligence, Surveillance, and Reconnaissance 
with Smart Defense

    Air Policing today uses already existing air forces in support of 
Iceland and the Baltic States, and Albania; states who lack air forces 
with that capability, thus enabling them to concentrate scarce 
resources on other security capabilities that are more in demand for 
the Alliance as a whole rather than the purchase of costly fighter 
aircraft.
    The Helicopter Maintenance initiative will develop economies of 
scale by centralizing logistics support for commonly fielded 
helicopters. With multinational participation, this can reduce 
footprint and redundancy, increase the cost-efficiency and optimize the 
use of resources. For example, there is much potential in this area for 
NH90 operating nations (a similar conceptual approach is found within 
the Joint Strike Fighter project).
    As existing Maritime Patrol Aircraft fleets age-out across many 
NATO member nations, rather than duplicate existing numbers with costly 
modern replacements, an agreement for multinational use of these 
specialized assets will to some extend achieve greater flexibility and 
efficiency by creating a multi-national framework to pool and share 
capabilities.
    Joint Intelligence, Surveillance, and Reconnaissance, including the 
Alliance Ground Surveillance (AGS) project, is Smart Defense in that a 
number of nations have agreed to procure critical assets that would 
otherwise be prohibitively expensive on an individual basis. Within the 
Alliance Ground Surveillance project, NATO will provide an organization 
and structure, Air Base facilities, training, etc, which will serve as 
an Alliance hub into which participating nations can collaboratively 
generate information for the benefit of NATO. [See page 22.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. ROBY
    Admiral Stavridis.
    Iran's Nuclear Program

    Since September 2002, the International Atomic Energy Agency (IAEA) 
has been working to clarify the nature of Iran's nuclear program. In 
one of his most detailed reports to the Board of Governors on Iran's 
activities, Director General Mohamed ElBaradei indicated in November 
2004 that Iran had failed to report, declare, and provide information 
on a number of critical issues.
    Since November 2004, IAEA Directors General have issued numerous 
reports on Iran's implementation of its Nuclear Nonproliferation Treaty 
(NPT) Safeguards Agreement and relevant provisions of UN Security 
Council Resolutions 1737, 1747, 1803, and 1929. The IAEA Board found 
Iran in noncompliance with its Safeguards Agreement in September 2005 
and, after Iran restarted uranium enrichment activities at Natanz in 
January 2006, the Board reported Iran to the UN Security Council (UNSC) 
for its noncompliance.
    In response to the IAEA Board of Governor's finding of 
noncompliance, the UNSC has adopted a Presidential Statement (S/PRST/
2006, March 2006) and six resolutions (UNSCRs) on Iran: UNSCR 1696 
(July 2006), UNSCR 1737 (December 2006), UNSCR 1747 (March 2007), UNSCR 
1803 (March 2008), UNSCR 1835 (September 2008), and UNSCR 1929 (2010). 
Four of the six resolutions (UNSCRs 1737, 1747, 1803, and 1929) impose 
Chapter VII (legally binding) sanctions on Iran.
    In June 2006, China, France, Germany, Russia, the United States, 
and United Kingdom--the P5+1, also known as the E3+3--offered Iran a 
substantial incentives package of economic cooperation and assistance 
in return for Tehran's full cooperation with the IAEA and suspension of 
its uranium enrichment-related and reprocessing activities. The P5+1 
presented Iran with a refreshed package of incentives in June 2008, but 
Iran has yet to respond clearly and positively to this offer, or comply 
with its UNSC and IAEA obligations. On April 8, 2009, the P5+1 invited 
Iran to meet with the group to resolve international concerns and 
rebuild the confidence of the international community. On October 1, 
2009, the United States and the other P5+1 members met with 
representatives from Iran in Geneva, Switzerland.
    In late 2009, Iran appealed to the IAEA for fuel assemblies for the 
Tehran research reactor (TRR), which has operated for decades and 
produces medical isotopes. The IAEA, with support from the United 
States, France, and Russia, offered a TRR re-fueling proposal that 
would utilize Iran's own available low-enriched uranium (LEU) at the 
Natanz fuel enrichment plant by sending 1,200 kilograms of the LEU to 
Russia for further enrichment, fabricating it into fuel, and returning 
it to Iran for use in this safeguarded reactor. The plan would have 
provided the TRR with much-needed fuel to continue to produce medical 
isotopes while also beginning to build international confidence in 
Iran's peaceful intent by removing the majority of its LEU stockpile 
from Iran's territory; however, parties did not reach an agreement on 
the swap deal.
    On June 9, 2010, the UNSC adopted Resolution 1929, the fourth 
legally binding resolution calling on Iran to halt its proliferation-
sensitive nuclear activities and comply with its NPT, UNSC, and IAEA 
safeguards obligations. The resolution calls for several actions to 
restore international confidence in the peaceful nature of Iran's 
nuclear program.
    International concerns regarding the nature of Iran's nuclear 
program were deepened and reaffirmed by a November 2011 IAEA Director 
General's report that concluded that Iran has carried out activities 
``relevant to the development of a nuclear explosive device,'' and 
``that prior to the end of 2003, these activities took place under a 
structured program, and that some activities may still be ongoing.'' On 
November 18, 2011, the IAEA Board of Governors passed a resolution 
expressing its deep concern about the unresolved issues regarding 
Iran's nuclear program and calling on Iran ``to engage seriously and 
without preconditions in talks aimed at restoring international 
confidence in the exclusively peaceful nature of Iran's nuclear 
program.'' President Obama said on 7 March 2012, ``To resolve this 
issue will require Iran to come to the table and discuss in a clear and 
forthright way how to prove to the international community that the 
intentions of their nuclear program are peaceful.'' And as he also 
noted, we don't expect a breakthrough in a first meeting. As President 
Obama noted, there are steps that Iran can take that are verifiable, 
that would allow them to be in compliance with international norms and 
international mandates and would provide the world an assurance that 
they're not pursuing a nuclear weapon. This is not a mystery; they know 
how to do it, and the question is going to be whether in these 
discussions they show themselves moving clearly in that direction. They 
understand that the world community means
business.
    ``We have demonstrated consistently through the P5+1 that the 
international community is united in our concerns and condemnation of 
Iran's actions that violate their international obligations. We are 
united in continuing to press the Iranian regime to come to the P5+1 
diplomatic forum.'' (Secretary Clinton)
    ``We continue to believe we have space for diplomacy. It is coupled 
with very strong pressure in the form of the toughest sanctions that 
the international community's ever imposed.'' (Secretary Clinton)
    ``Iran insists that their nuclear program is purely peaceful and if 
that's the case, then openness and transparency, not only with the P5+1 
but also with the IAEA and the Security Council and the international 
community, is essential.'' (Secretary Clinton)
    ``We are hoping that the Iranians will come to the table prepared 
to have the kind of serious and sincere discussion we have been seeking 
for several years.'' (Secretary Clinton) [See page 31.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 29, 2012

=======================================================================

      
                  QUESTION SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. If you were to relocate the headquarters of US 
AFRICOM, what weighted factors would you deem important in determining 
the location for the command? What confluence of features and 
parameters create an ideal location for the headquarters of US AFRICOM? 
What kind of community would properly support the mission of the 
command?
    General Ham. The Office of the Secretary of Defense is currently 
leading a comprehensive, congressionally mandated, Basing Alternatives 
Study which will assess the cost-benefit with moving the headquarters 
from its current location to the United States. We provided the 
requisite operational data to support their analysis of the comparative 
costs, benefits, and risks.
    Strategically and operationally, our current location provides for 
effective command, control and coordination of operations. We 
demonstrated this during Operation ODYSSEY DAWN (OOD) in Libya. A key 
factor in OOD's successful execution was that the Headquarters lies in 
the same time zone (+/- 3 hours) of the entire African continent, 
including Combined Joint Task Force-Horn of Africa, the command's 
service components, U.S. European Command and our European allies and 
partners active in Africa.
    Cost is also a consideration. Alternative options must account for 
the significant expense associated with a move from Stuttgart including 
the infrastructure costs related to any new headquarters facility. The 
cost associated with travel to the continent to meet face to face with 
our African partners, where strong personal relationships are valued 
and critical for working effectively together to address threats, is 
essential and will be a recurring obligation.
    Until a final decision is made, we will continue to accomplish our 
mission from Stuttgart, where our proximity to Africa, both 
geographically and in terms of time zones, facilitates our ability to 
build relationships with our African partners, and where our service 
members, civilians and their families can serve from a safe and well-
supported location. Once the study is complete, we will comply with the 
guidance and decision of the Secretary of Defense.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Admiral Stavridis, in past years, several nations in 
the EUCOM AOR have been subject to sophisticated cyberattacks in 
conjunction with political and military conflicts. To what extent do we 
communicate with these countries on cyber threats?
    Admiral Stavridis. EUCOM is the executive agent for five 
Information Assurance/Cyber Defense Information Exchange Memorandums of 
Understanding (MOUs), which are negotiated by the Office of the 
Secretary of Defense, Chief Information Office. These agreements 
facilitate sharing classified information with key regional partners, 
building robust relationships, and strengthening collective cyber 
security. Absent such MOUs, we can exchange only unclassified 
information.
    CYBER ENDEAVOR is EUCOM's premier cyber security program for 
advancing collaboration, familiarization, and engagement with partner 
nations. It is designed to strengthen cyber defense capabilities 
through seminars, events, and exercises with NATO, partner nations, 
academia, and industry. Owing to the critical role that the cyber 
domain plays in military operations, CYBER ENDEAVOR is essential to 
maintaining and improving force readiness for deployment in support of 
multinational crisis response activities, combined exercises, and 
future missions.
    Mr. Langevin. How has your communication with other countries 
changed as a result of the inclusion of cyber in the 2010 NATO 
strategic concept, and are there limitations on your ability to 
communicate with these and other EUCOM AOR countries on cybersecurity-
related matters that need to be addressed?
    Admiral Stavridis. [The information referred to is classified and 
retained in the committee files.]
    Mr. Langevin. To what extent is EUCOM involved with cyber threats 
that are associated with terrorism and organized crime?
    Admiral Stavridis. Both terrorist organizations and organized crime 
syndicates are certainly well-versed in employing the cyber domain to 
assist them in their nefarious activities. Primarily, however, the 
cyber domain is employed by these two groups as a means of 
facilitation: recruiting, fundraising, propaganda messaging, or cyber 
crime schemes to defraud unwitting victims. While certainly 
problematic, these uses of the internet do not rise to the level of 
``cyber threats,'' as the relative lack of ``cyber sophistication'' 
generally demonstrated by these groups does not threaten EUCOM networks 
in the way that more tech-savvy adversaries might be able to.
    Mr. Langevin. How has EUCOM's cyber threat environment changed over 
the past year, and where do you see it going in the near term? Are we 
adequately
prepared?
    Admiral Stavridis. EUCOM's threat environment over the past year 
has seen an increase in hacker-activist (colloquially termed 
``hacktivist'') threat activity from non-state actors. The expectation 
is that the hacktivist threat will continue to increase in the near 
term. Preparing for an evolving and changing threat such as hacktivism 
is a challenge, but the agile and flexible work force at EUCOM is the 
best defense for such a dynamic adversary.
    Mr. Langevin. Are EUCOM's lines of communication and responsibility 
well defined with regards to operational cyber?
    Admiral Stavridis. The recently adopted construct for command and 
control (C2) of cyberspace operations specifies command relationships, 
roles, and responsibilities of Combatant Commands, Services, and 
Agencies for operations in the cyber domain, consistent with existing 
authorities, requirements, and capabilities. This standardized 
framework will help EUCOM configure, operate, and maintain its Theater 
networks, allowing it to effectively operate in and through cyberspace 
in support of command requirements. The cyber C2 construct will 
continue to be refined as it is implemented over the coming year.
    Mr. Langevin. I have been very concerned over time about the 
capabilities of our bases here in the United States to withstand a 
cyberattack directed against outside supporting infrastructure, such as 
the electrical grid. Have you examined the ability of overseas bases in 
your areas of responsibility to operate in the event of such an attack?
    Admiral Stavridis. [The information referred to is classified and 
retained in the committee files.]
    Mr. Langevin. Do you see significant challenges or capability 
shortfalls where our research and development investments and 
capabilities could help you in achieving operational goals?
    Admiral Stavridis. Research and development investments and 
capabilities play a key role in satisfying our capability shortfalls. 
We have a robust process of identifying and validating our capability 
shortfalls, in coordination with OSD and Joint Staff, which leverages 
ongoing research and development efforts. We proactively engage the 
research and development community to identify capabilities that would 
enhance our ongoing operations. Several areas in which we have seen 
benefits include ballistic missile defense, countering illicit 
activities, cyber security, and knowledge management.
    The most significant challenge to addressing operational 
requirements with research and development (R&D) investment exists in 
the potential for Combatant Command (COCOM)- oriented R&D programs to 
be curtailed. Programs such as the Joint Capability Technology 
Demonstration (JCTD) provide the COCOM with the ability to target R&D 
efforts to rapidly identify new solutions to meet joint urgent and 
emergent operational needs. Continued support of the JCTD program, 
combined with the efforts of the Service Laboratories, enables new 
technologies to be developed supporting a broad range of capabilities. 
Recent challenges to R&D funding have had a measurable effect on the 
pursuit of technological solutions to meet operational requirements.
    EUCOM has identified a number of challenges and capability 
shortfalls where increased R&D will indeed help find solutions to 
operational goals, managed formally through the Comprehensive Joint 
Assessment (CJA) process (which identifies longer-term theater 
requirements appropriate for R&D). More immediate-term shortfalls are 
identified in the EUCOM Integrated Priority List. Despite the timing 
differences, there are a number of common topics identified in these 
two documents. Three areas where we believe there needs to be 
additional effort are in ballistic missile defense, energy security, 
and cyber defense.
    Energy Security. There are dramatic changes occurring in the energy 
domain that portend real risks to forces in terms of sourcing and 
vulnerability. These changes require earnest effort into developing 
energy-independent platforms and facilities as well as visibility and 
accountability of how we use energy and entirely different and 
significantly less vulnerable ways to power the force.
    Ballistic Missile Defense (BMD). BMD is taking on an increasingly 
important role due to current events, which requires more attention in 
the R&D community. We are accepting real risk in system capabilities 
such as data fusion and defense planning tools, as well as in 
operational and communications capabilities and
enhancements.
    Cyber Defense. Threats to our cyber domain are continually 
increasing. Despite significant Department-wide efforts, we are 
concerned that we are not allocating significant resources to mitigate 
these potentially crippling threats. We are a leading partner in 
development of cyber domain command and control, enumeration of 
adversary, insider, friendly, and environmental activities, and 
experimentation in cyber authority delegation, but more R&D work and 
investment is urgently needed in these areas.

    Mr. Langevin. I have been very concerned over time about the 
capabilities of our bases here in the United States to withstand a 
cyberattack directed against outside supporting infrastructure, such as 
the electrical grid. Have you examined the ability of overseas bases in 
your areas of responsibility to operate in the event of such an attack?
    General Ham. We have examined whether our systems would be able to 
withstand a cyber attack directed against outside supporting 
infrastructure at Camp Lemonnier, in Djibouti, our only enduring 
location in our area of responsibility, and at locations where we 
maintain a temporary military presence. We also regularly conduct 
assessments to determine the likely effects of an attack and measure 
redundancy to ensure we are able to continue operations. As needed, we 
refine our plans to ensure continuity of operations. While the loss of 
outside supporting infrastructure would have a detrimental effect, we 
would be able to sustain critical functions.
    Mr. Langevin. General Ham, to what extent has the transnational 
terrorism threat in Africa changed over the past year, and have you 
seen communication and coordination between different terrorist 
elements or criminal organizations?
    General Ham. [The information referred to is classified and 
retained in the committee files.]
    Mr. Langevin. Do any developments demand a change in U.S. posture 
with regard to training, support, or counter-terrorism programs, both 
military and civilian?
    General Ham. Events in Africa over the past year provide both 
opportunities and challenges. The Arab Spring gives us the opportunity 
to assist in the development of new governments and militaries while 
instability in East Africa and the Sahel region of North Africa 
requires greater vigilance to address threats posed by violent 
extremist organizations. Despite the dynamic nature of Africa, however, 
no major changes in U.S. posture, other than my previously stated 
requirement for additional collection assets, are required at this 
time.
    Mr. Langevin. Do you see significant challenges or capability 
shortfalls where our research and development investments and 
capabilities could help you in achieving operational goals?
    General Ham. There are several areas where the Research and 
Development (R&D) community can assist us in meeting our operational 
goals. Our top priority is for improved Intelligence, Surveillance, and 
Reconnaissance (ISR) systems that include near-real time processing, 
exploitation, dissemination, and communications capabilities to improve 
on-station time, persistence and timely delivery of information. Also, 
we would benefit from ISR systems with foliage penetration or counter-
concealment capability. Additionally, investment in Identity Resolution 
capabilities such as biometrics, document exploitation, and forensics 
capabilities could provide critical indications and warnings. R&D 
investments in a Friendly Force Tracking capability integrated with a 
command and control system for Joint Personnel Recovery (JPR) locator 
beacons would improve JPR operations. In the medical arena, timely and 
cost effective rapid diagnostic testing, surveillance, monitoring and 
reporting capabilities would help us keep our personnel healthy while 
they are conducting operations, engagements, and exercises on the 
continent in remote areas of known infectious diseases. Lastly, given 
the diverse environment and lack of a reliable infrastructure, further 
investment in portable, lightweight, long enduring, regenerating power 
technologies would enable continuous operations while reducing the 
amount of weight and demand for replenishment of power (e.g. batteries, 
fuel).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. As you know, the European Phased Adaptive Approach is 
being offered by the United States as a contribution to NATO. This 
means we're offering it free-of-charge. What discussions are taking 
place to make sure that our allies chip in a fair share of this system 
which, as you know, solely defends Europe until at least 2020? As a 
corollary, does EUCOM know how much this system will cost it through 
the four phases of the EPAA?
    Admiral Stavridis. Many of our Allies already possess low-tier 
Ballistic Missile Defense (BMD) capabilities, either in the form of 
U.S. Patriot systems or French SAM-T systems. Germany and Italy remain 
committed to development of the Medium Extended Air Defense System 
(MEADS) program which would provide increased lower tier capability. 
For upper-tier capability development, The Netherlands recently 
committed to upgrading their maritime forces to be able to support BMD 
operations (sensor only for now); Germany, Denmark, and Norway are 
examining the feasibility of similar upgrades for their maritime 
forces. Finally, it is important to note that the basing access which 
Spain, Turkey, Romania, and Poland are providing for our planned EPAA 
forces is yet another form of Allied contribution. As to the long term 
costs of EPAA, this question is best answered by the Office of the 
Secretary of Defense (OSD) who can consolidate Missile Defense Agency 
(MDA) and Service-related costs.
    Mr. Turner. Second, this document (See the chart on page 171) is 
from a recent NATO PA Joint Committee meeting, specifically a 
presentation to the NATO PA from Mr. Frank Boland, Director of Planning 
for the Defence Policy and Planning Division on the NATO International 
Staff. What it shows is that even accounting for inflation, the United 
States foots the overwhelming majority, perhaps as much as 75%, of the 
defense spending in NATO. This was a clear lesson from the operation in 
Libya, when even some of our strongest allies ran out of basic 
munitions. Given your dual role as EUCOM Command and Supreme Allied 
Commander of Europe, please explain what this chart means to you?
    Admiral Stavridis. What this slide shows is that since 9/11 the 
United States has invested heavily in its armed forces, ensuring that 
they have the right resources for the mission and its operations across 
the globe. This slide, unfortunately, does not capture what part of the 
U.S. defense budget is committed to the Alliance, and what part is 
committed to other global defense and security priorities. With the 
exception of a very few (France, UK, to an extent Canada) Allied 
defense spending is 100% dedicated to NATO defense. Hence, comparing 
the U.S. defense spending to Allies' defense spending is difficult to 
do since many Allies focus on defense purely in support of NATO. We 
know that the financial crisis has hit many of our Allies hard, and it 
is indeed affecting U.S. defense spending in a similar manner, but we 
are all seeking ways to best address the challenges we face. What is 
important to remember is that the Alliance is working hard to ensure 
that it has the appropriate capabilities to meet the ambitions set out 
in the 2010 Strategic Concept. Much of the focus for the NATO Summit in 
Chicago this May will be on defense capabilities and ensuring the 
Allies, and hence the Alliance, remain capable to meet their Washington 
treaty obligations.
    Mr. Turner. We also spoke briefly about the fine work of our 
Georgian Allies in Afghanistan. As you know, three of their soldiers 
were killed last week in an IED attack and one of their officers is at 
the Walter Reed Army hospital right now, having suffered multiple 
amputations. a. Can you speak to the contributions of the Georgians in 
Afghanistan? b. As you know, there are at least seven Non-NATO states 
present at that facility undertaking NATO coordination activities for 
Special Operations. Yesterday, four members of the U.S. NATO PA 
delegation and I wrote to you (See the letter on page 172) asking you 
to review what needs to be done for Georgia to join the NATO SOF HQ. Do 
you support such a step?
    Admiral Stavridis. To date, the Georgian contribution to ISAF has 
been indispensable to the overall effort and has contributed 
considerably to United States capabilities and success in Regional 
Command Southwest. They have already sent four battalions on six-month 
deployments since 2010, and recently offered to double their 
commitment, and beginning in October will provide two battalions every 
six months. They have served valiantly to date suffering significant 
casualties while volunteering to conduct all the same missions as the 
U.S. Marines. The Georgians also secure a significant amount of 
territory (own battle space) in Helmand Province, an exception among 
other non-NATO partners.
    To begin dialog on participation in the NATO Special Operations HQ 
(NSHQ), Georgia would need to gain a special security arrangement with 
NATO in accordance with the NSHQ governing legal framework, which first 
requires meeting certain NATO operational security benchmarks. Georgia 
would then need to establish a formal sponsorship arrangement with one 
of the NSHQ participating NATO member nations. Such a sponsorship 
arrangement would likely require as a prerequisite a full assessment of 
Georgian SOF capabilities and follow-on training support.
    Pending resolution of these issues, I support Georgian 
participation in the NATO Special Operations HQ.
    Mr. Turner. Ms. Sanchez and I are the heads of the Congressional 
Romania Caucus, which has 32 members. When we spoke last week we 
discussed the interest of Romania in purchasing F-16 fighters from the 
United States. Can you speak to where that proposal stands? Do you 
believe a part of ``smart defense'' should be making sure our allies 
are properly equipped?
    Admiral Stavridis. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the current EUCOM workforce construct reflect an 
appropriately balanced workforce between civilian, military and 
contract support across all major capabilities, functional areas, and 
requirements? Please support your response with workforce and cost data 
as required by statutes and policies.
    Admiral Stavridis. Yes, EUCOM Headquarters reorganized to embrace 
an interagency and ``whole of society/government'' approach to 
maintaining security and stability in Europe and Eurasia, while shaping 
existing structures to accommodate the security environment through 
2020. Our assessment allowed us to reshape EUCOM Headquarters to ensure 
an organization that ``effectively conducts the mission efficiently.'' 
Directorates prioritized all permanent billets in order to identify 
those with the lowest priority. Directorates also developed a 
prioritized list of manpower requirements, drawn from the ``gaps'' that 
we identified in our assessment. Both the assessment and the 
prioritization of on hand resources looked at the enterprise across the 
board, and took into account all categories of available manpower 
(civilian, military, contractor, and Reserve Component). Permanent 
manpower requirements were accommodated from within the HQ USEUCOM 
staff, using lowest priority billets as offsets and other available 
human resources for mitigating or bridging any capability gaps.
    The results allowed EUCOM Headquarters to execute an internal staff 
rebalance without incurring any growth. In accordance with our new 
mission-set the staff developed a re-prioritization of all permanent 
billets. This new prioritization presented leadership a picture of our 
bottom 10% zone in anticipation of additional reductions in manpower 
and fiscal resources that we took as directed by the SECDEF.
    To achieve these ends, EUCOM Headquarters relies on the guidance 
and policy published in DODI 1100.22, Policy and Procedures for 
Determining Workforce Mix and CJCSI 1001.01A, Joint Manpower And 
Personnel Program. EUCOM Headquarters supplements and provides further 
procedural guidance within the Command through its command 
instructions, ECI 1601.02, Manpower (currently under revision) and 
command guidance ECG 5101.01, EUCOM Organization and Functions 
(currently under revision). Additionally, the Command conducts regular 
directorate manpower reviews and detailed Strength Reports that 
highlight trends across all categories of manpower.
    Ms. Bordallo. In your prepared statement, you stated that EUCOM has 
implemented Contract Management Boards to review all manpower contracts 
for possible in-sourcing or reduction. How do you define manpower 
contracts and how does that reconcile with requirements of 10 USC 
2330a?
    Admiral Stavridis. Manpower Contracts are services contracts 
provided by industry to government to place subject matter experts and 
specialists or consultants in place to perform specific requirements in 
place of non-available military or civilian manpower. EUCOM's Contract 
Management Board considers the information set forth in 10 U.S.C 
2330a(c)(2), relating to the reporting requirements for manpower 
contract issues.
    Ms. Bordallo. Your prepared statement indicated that EUCOM uses 
Manpower Governance Boards to validate authorized billets, and have 
willingly accepted greater risk in our Program Objective Memorandum in 
order to fund our most important missions and functions. To what extent 
do these Boards ensure compliance with statutory requirements and 
Personnel & Readiness issued policies related to workforce mix, cost, 
and risk?
    Admiral Stavridis. The Manpower Governance Board (MGB) is the 
strategic governing body within USEUCOM to review and recommend changes 
to EUCOM's total force manpower. The purpose of the MGB is to ensure 
EUCOM's manpower resources, as well as its manpower polices and 
processes, are aligned to achieve the most important strategic and 
functional objectives of the Command within available funding. 
According to its charter, the MGB will:
    a. Provide oversight and policy guidance to the manpower governance 
processes to include the Compensation Review Board (CRB), Joint Reserve 
Requirements Board (JRRB), and the Contract Management Board (CMB) 
actions that will result in contracted manpower. The MGB represents the 
decision-making authority
for these governance processes and will serve to synchronize manpower 
decision-
making.
    b. Ensure that requests for increased manpower, permanent and 
temporary over-hires, are prioritized and consistent with EUCOM 
strategic objectives.
    c. Ensure that internally-generated initiatives to realign manpower 
(e.g., across directorates; convert temporary positions to permanent) 
are consistent with EUCOM missions, avoid redundancy, and minimize risk 
to accomplishment of work. This includes contractor to civilian 
conversions (Concept Plan submissions), and military to civilian 
conversions (Defense Manpower Review Process and Reserve Component).
    d. Ensure that EUCOM has sufficient manpower deployed to its most 
critical missions and functions.
    e. Provide transparency in manpower resource decision-making and 
resource allocation within and across directorates.
    The membership of the MGB includes: EUCOM Assistant Chief of Staff 
(ACOS) and Deputy ECJ1, who serve as co-chairs. The ACOS serves as the 
voting member for the Special Staff. The MGB also includes primary and 
alternate O-6 or GS-15 deputy-level representatives from each EUCOM 
numbered J-code directorate. The MGB submits recommendations to the 
EUCOM Chief of Staff for final approval.
    The Manpower, Personnel, and Administration Directorate (ECJ1) 
staff will provide facilitation and analytic support to the MGB, and 
serves as the office of primary responsibility for the MGB. ECJ1 serves 
as manpower requirement and personnel policy subject matter expert to 
the J codes/Special Staff and the MGB, owns the operation of the 
manpower governance processes, analyzes business case analysis-based 
manpower increase requests (to assess the validity and priority of the 
request, as well as the best sourcing options for the requirement), and 
conducts analysis of current manpower alignment to ensure that 
internally-generated manpower realignment initiatives (e.g., across 
directorates; convert temporary positions to permanent) are consistent 
with EUCOM missions and minimize risk to the accomplishment of work.
    Ms. Bordallo. Did EUCOM seek relief from DOD-mandated civilian 
personnel levels in order to insource contracted work more cost-
effectively performed by
civilians?
    Admiral Stavridis. No, not during the last fiscal year. But, yes, 
over the last 5 years in order to accomplish insourcing. And EUCOM 
coordinated with the Joint Staff to ensure our manpower requirements 
were adequately reflected within the existing civilian personnel level.
    Ms. Bordallo. To what extent has EUCOM used insourcing to reduce 
reliance on contractors, rebalance its workforce, and generate 
efficiencies?
    Admiral Stavridis. EUCOM Headquarters has been reducing reliance on 
contractors since 2006 and rebalancing our workforce. Several contracts 
have been cancelled due to mission accomplishment or when no longer 
needed. More than 60 contractor billets have been transitioned to 
civilian positions, creating efficiencies and cost avoidance of more 
than $3 million.
    Ms. Bordallo. Are you comfortable that all contracted services 
currently supporting EUCOM are the most cost-effective and risk-averse 
source of labor?
    Admiral Stavridis. Yes. EUCOM continues to integrate updated DOD 
guidance to support a more efficient manpower solution. Through our 
contract management board process, we review alternatives to contracted 
services as well as conduct a ``cost benefit analysis'' to ensure that 
we are meeting the intent of 8108(c) and the Campaign to Cut Waste 
Guidance. We feel confident that we have taken the necessary measures 
to develop a process that achieves a cost effective source of labor, 
and our contract management board decisions continue to yield cost 
savings.
    Ms. Bordallo. What processes are in place within EUCOM to ensure 
the workload associated with reductions being made in the civilian 
workforce is in fact ceasing, as opposed to being absorbed by other 
labor sources such as contractors or military personnel?
    Admiral Stavridis. After the SECDEF Efficiency Initiatives 
reduction to the EUCOM Headquarters, EUCOM initiated EUCOM 2020 Phase 
III to review and assess manpower against functions and rebalance the 
staff, if necessary, in order to correctly align appropriate manpower 
against the highest priority missions and functions, while taking 
additional risk in lower priority missions and functions.
    The EUCOM staff prepared organizational functional risk assessments 
and identified areas of risk or functions that could either be deleted 
or transferred. The risk assessments and staff rebalance was approved 
by the EUCOM Deputy Commander on 8 June 2011, and the list of deleted 
functions was approved on 11 November 2011.
    Subsequently, the EUCOM Organization and Functions Manual is being 
completely revised. Combined with the risk assessment tool developed 
during EUCOM 2020 Phase III and the Annual Manpower Process, through 
which organizations identify additional manpower requirements within 
EUCOM, the Command will conduct an analysis on an annual basis to 
ensure that manpower is correctly allocated, and that any reduction in 
either the military or civilian workforce reflects the elimination or 
reduction in the associated mission or function.
    Ms. Bordallo. In the EUCOM plan for the inventory of contracts for 
services in accordance with section 8108(c) of last year's 
appropriations act, signed by your Director of Manpower, Personnel, and 
Administration on October 1, 2011, and submitted to the congressional 
defense committees as part of the consolidated DOD plan, EUCOM planned 
to begin modifying statements of work beginning October 1, 2011. How 
many contract actions have been executed with the new requirements 
since October 1, 2011?
    Admiral Stavridis. Contract actions initiated by EUCOM Headquarters 
are processed by several contracting organizations in Europe and the 
United States. Contracting Officer's Representatives have been 
coordinating with these contracting agencies and have commenced 
contract modifications as existing contracts come up for renewal. At 
least 12 out of 24 services contracts supporting EUCOM Headquarters 
have been executed with the new requirements. We expect to have all 
contracts modified by the beginning of fiscal year 2013
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates' mandated. 
Please provide a detailed list of all exceptions EUCOM has had approved 
to date and the reason for those exceptions, as well as any exceptions 
that were requested but not approved, and the justification for such.
    Admiral Stavridis. Subsequent to the Secretary's August 2010 
announcement of a civilian ``freeze,'' EUCOM did request exceptions to 
the limit. None of those requests were granted.
    Specifically, in September 2010, EUCOM requested exceptions for the 
following 28 positions:
    Ballistic Missile Defense--13 positions Interagency engagement--1 
positions Strategy for Active Security--2 positions Academic 
coordination--1 position Critical Infrastructure (counter-terrorism, 
information technology, cyber)--3 positions Defense Intelligence Agency 
conversion of 20 Air Force military positions--8 positions
    There were no specific justifications for denial of these requests 
for exceptions.
    Ms. Bordallo. As efficiencies are being executed across EUCOM, is 
the workload and functions associated with those being tracked as 
eliminated or divested through the annual inventory of functions?
    Admiral Stavridis. Beginning in August 2010, EUCOM participated in 
the Secretary of Defense Efficiency Initiatives that resulted in a loss 
of both manpower and funding to the headquarters. From December 2010 to 
June 2011, the management headquarters staff conducted EUCOM 2020 Phase 
III, a project that involved conducting a headquarters-wide functional 
risk assessment and resulted in reorganizing and rebalancing the staff. 
The functional risk assessments also resulted in recommendations for 
functional deletions, which was approved by the Deputy Commander on 9 
November 2011.
    The U.S. European Command Organization and Functions Manual (ECM 
5100.01) has been completely revised from previous versions. The last 
version to be approved by the EUCOM Chief of Staff was dated 1 October 
2009. On 22 June 2011, the Director, ECJ1 signed an interim guidance 
ECG 5100.01, which captured organizational changes to the Command but 
did not review or update the associated
functions.
    The starting point for this version of ECM 5100.01 is the functions 
developed during the EUCOM 2020 Phase III organizational risk 
assessments and approved by the EUCOM Deputy Commander on 8 June 2011. 
Reductions in manpower also forced directorates and special staff 
sections to reorganize in order to operate more efficiently. The 
current version reflects functions eliminated during EUCOM 2020 Phase 
III. Future versions will track further reductions.
    It is expected that the EUCOM Organization and Functions Manual 
will provide a common foundation as the Command continues to 
periodically update the organization functional risk assessments and 
potentially absorb additional reductions in manpower or changes to 
missions and priorities.

    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the current AFRICOM workforce construct reflect an 
appropriately balanced workforce between civilian, military and 
contract support across all major capabilities, functional areas, and 
requirements? Please support your response with workforce and cost data 
as required by statutes and policies.
    General Ham. Our headquarters has an adequate, balanced and skilled 
workforce. We are currently authorized 804 military and 827 civilians. 
As the command formed, we bridged some personnel gaps with contractors 
until permanent manpower was assigned, but have since divested many of 
those contracts.
    From Fiscal Year (FY)10 to the end of FY12 we will have reduced a 
total of 67 contractors for a savings of over $17 million. 
Specifically, in FY10 we replaced 50 contractors with permanent 
military and civilian personnel for a savings of $13.5 million; in FY11 
when contractor to civilian conversions were no longer authorized, we 
reduced one contractor for a savings of $275K; in FY12 we will divest 
another 16 contractors with an expected savings of over $4 million.
    In our Intelligence Directorate, the majority of positions are 
authorized and managed by the Defense Intelligence Agency. In FY12, the 
Secretary of Defense directed geographic combatant commands to resize 
their Joint Intelligence Operations Centers. This will result in a FY12 
reduction of $2.8 million in funding for contracts equating to 10 
Contract Manpower Equivalents and an additional $5.2 million in FY13 
equating to 19 Contract Manpower Equivalents. Additionally, in 
complying with the President's guidance, we have consistently vetted 
contract requirements through a corporate board for validation and 
funding. The board meets as often as biweekly in a continuous effort to 
reduce contract support.
    Ms. Bordallo. You indicated in your prepared statement, you 
indicated that throughout Africa, small teams of soldiers, sailors, 
airmen, marines, coastguardsmen, and DOD civilians and contractors, 
along with teammates from many other U.S. Government agencies, conduct 
a wide range of engagements in support of U.S. security interests. How 
many contractors does AFRICOM currently have operating throughout 
Africa and what work are they performing? Given the mission and 
operating environment, is this the most appropriate and cost-effective 
form of labor to meet support U.S. security interests?
    General Ham. As of 1 Feb 12, 370 contractors were accompanying U.S. 
forces in Africa. These contractors provide communication support, 
transportation, training, base support, general logistics and 
construction. Some of the considerations in deciding to hire 
contractors to perform a particular mission on the African continent 
are a review of factors such as the mission duration, the immediacy of 
the presence, and the availability of service members or civilians with 
the required skill set within the Department of Defense (DOD) or other 
federal agencies. Given limited DOD resources, contractors are often 
required to fill gaps in capability. A majority of the contracts on the 
continent are awarded based on full and open competition with a desire 
to maintain a small footprint. Any sole source requirement is 
accompanied with required justification. The labor mix (contractor/DOD 
civilian/military) has been evaluated and determined to be appropriate. 
The contract costs associated with labor are determined based on best 
contracting practices. These numbers do not reflect contractors that 
our components may use to provide basic support services to our 
deployed personnel at various locations on the African continent.
    Ms. Bordallo. Did AFRICOM seek relief from DOD-mandated civilian 
personnel levels in order to insource contracted work more cost-
effectively performed by
civilians?
    General Ham. Yes; we requested relief to continue in-sourcing 
positions. There was a short window of opportunity to identify these 
positions. Our Operations Directorate had a standing plan to convert 33 
positions over two years. We were successful in having these approved 
for Fiscal Year 12. Further guidance from the Department of Defense 
absolved the possibility of in-sourcing. Even without in-sourcing, we 
continue to reduce reliance on the use of contractors.
    Ms. Bordallo. To what extent has AFRICOM used insourcing to reduce 
reliance on contractors, rebalance its workforce, and generate 
efficiencies?
    General Ham. During the initial establishment of the Command, we 
relied heavily on contractors to fill gaps until permanent personnel 
arrived. In Fiscal Year (FY)10 we began an in-sourcing plan in our 
Operations Directorate which targeted contractors in key mission areas, 
such as our current operations, future operations, information 
operations, and anti-terrorism divisions. Based on the guidance at the 
time for in-sourcing, we identified approximately 50 contractor 
positions to in-source over a two year period. In FY10 we identified 22 
positions, with the remainder to follow in FY11 and FY12. We continue 
to scrutinize contracts vetting each contract requirement through a 
corporate board for validation and funding. The board meets as 
frequently as biweekly in a continuous effort to reduce contract 
support. We have also generated efficiencies by internal realignments 
while managing acceptable risk to mission accomplishment.
    Ms. Bordallo. Are you comfortable that all contracted services 
currently supporting AFRICOM are the most cost-effective and risk-
averse source of labor?
    General Ham. Yes; however we continue to evaluate ways to implement 
cost savings whenever possible. Part of any decision to hire 
contractors to perform a particular mission in Africa is a review of 
such factors as the duration of the mission; the immediacy of our 
participation; and the availability of service members or civilians 
with the required skills within the Department of Defense or other 
agencies. A large portion of our contract support lies in skills that 
are not readily available in the government workforce with the required 
skill currency.
    Ms. Bordallo. What processes are in place within AFRICOM to ensure 
the workload associated with reductions being made in the civilian 
workforce is in fact ceasing, as opposed to being absorbed by other 
labor sources such as contractors or military personnel?
    General Ham. We have a number of internal processes to review labor 
activities. These processes include a Civilian Hiring Review Board, a 
Joint Manpower Working Group and a Business Management Working Group 
which conducts a holistic review of all contracts, contract renewals 
and workforce related activities.
    Ms. Bordallo. In the AFRICOM plan for the inventory of contracted 
services in accordance with section 8108(c) of last year's 
appropriations act, signed by your Acting Director of Resources 
September 29, 2011, and submitted to the congressional defense 
committees as part of the consolidated DOD plan, AFRICOM planned to 
begin modifying statements of work beginning October 1, 2011. How many 
contract actions have been executed with the new requirements since 
October 1, 2011?
    General Ham. AFRICOM does not have contracting authority, therefore 
we are supported by various contracting offices. Of the 17 contracts 
anticipated to be reported in the inventory of contracted services, 11 
contracts have been modified to include the support for the Contract 
Management Reporting Application. We anticipate the contracting offices 
will have the remaining six contracts modified prior to 1 October 2012.
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates mandated. 
Please provide a detailed list of all exceptions AFRICOM has had 
approved to date and the reason for those exceptions, as well as any 
exceptions that were requested but not approved, and the justification 
for such.
    General Ham. The Defense Security Cooperation Agency (DSCA) Global 
Offices of Security Cooperation (OSC) Review identified a 5 year 
expansion plan for U.S. Africa Command to meet expanding DSCA and 
command programs. We requested 17 civilian exemptions for Fiscal Year 
(FY) 11 and in FY12 we requested an exception for 24 civilian positions 
in support of this expansion of programs in our OSCs on the continent.
    Also, for FY12 we requested an exception for 33 positions 
identified in our Operations Directorate in-sourcing plan from FY10 to 
divest the headquarters of contractors in critical mission areas. 
Additionally for FY12, we were awarded an exception for 13 civilian 
positions for the Management Headquarters which are critical to the 
command's engagement missions. We were not provided justification for 
additions or deletions.
    Ms. Bordallo. As efficiencies are being executed across AFRICOM, is 
the workload and functions associated with those being tracked as 
eliminated or divested through the annual inventory of functions?
    General Ham. As we execute efficiencies, the workload is either 
eliminated, decreased or modified. Specifically, contracted manpower is 
decreasing due to the temporary nature of assigned tasks. 
Reorganization resulted in further reductions in administration and 
overhead and enhanced the efficiency of the command in terms of 
planning and operations. Our Operations and Functions Manual is 
currently being rewritten to reflect functional changes and workload.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. There is a significant decrease in the number of 
troops in the EUCOM AOR with two Army BCTs being relocated to CONUS. Is 
this going to create excess intra-theater airlift capacity in the EUCOM 
AOR?
    Admiral Stavridis. No, the inactivation of the two Army Heavy 
Brigades will not create excess intra-theater airlift capacity in the 
EUCOM AOR. The United States Air Forces in Europe (USAFE) provides 
intra-theater airlift capabilities to both the United States European 
Command (EUCOM) and the United States African Command (AFRICOM). These 
capabilities support a broad spectrum of EUCOM missions that include 
routine airlift channel missions, airlift in support of regional 
contingencies, exercises and training, airlift for EUCOM and AFRICOM 
components, and activities supporting building partnerships/building 
partnership capacity
(BP/BPC).
    The 173rd Airborne Brigade's Joint Airborne/Air Transport Training 
requirements was considered as one of the many factors in determining 
the intra-theater airlift capacity requirements for EUCOM; the two 
heavy Brigades were not included in the study as both were scheduled to 
return to CONUS during the study period. The 173rd ABCT is one of the 
two remaining BCTs in Europe.
    Mr. Conaway. What OPLAN does the C-130J unit at Ramstein support 
and how many non-training missions does the C-130J unit fly per day?
    Admiral Stavridis. [The information referred to is classified and 
retained in the committee files.]
    Mr. Conaway. With the reduction in A-10s and F-16s and the Army 
troop reductions in Europe, in your professional opinion, do we have 
excess basing capacity in Europe that could be warm-based or closed yet 
still retain access if the need were to arise?
    Admiral Stavridis. The recent posture decisions did not include any 
F-16 reductions. The Army reductions will allow the U.S. to return the 
communities of Bamberg and Schweinfurt, Germany, in addition to the 
ongoing actions to return the communities of Mannheim and Heidelberg. 
EUCOM is assisting the Office of the Secretary of Defense in its 2012 
National Defense Authorization Act-directed study of basing capacity. 
In addition, all of the Services continue to evaluate their stationing 
capacity seeking efficiencies where possible. Any Departmental 
decisions to warm-base or close bases that assume the U.S. will enjoy 
the same degree of access must be informed by a thorough assessment of 
the relationship with the affected country.

    Mr. Conaway. Does the Department plan to make a final decision on 
the permanent location for AFRICOM's headquarters this year and if so, 
what are the criteria that are going to be used to select the location?
    General Ham. The Office of the Secretary of Defense is currently 
leading a comprehensive, congressionally mandated, Basing Alternatives 
Study, which will assess the cost-benefit of moving the headquarters 
from its current location to the United States. We provided the 
requisite operational data to support their analysis of the comparative 
costs, benefits, and risks. Once the Basing Alternatives Study is 
complete, we will comply with the guidance and decision of the 
Secretary of Defense.
    Mr. Conaway. Would you please give me an update on the final 
decision for permanent location of AFRICOM's headquarters?
    General Ham. At this time, the Office of the Secretary of Defense 
is leading a comprehensive, congressionally mandated, Basing 
Alternatives Study which will assess the cost-benefit with moving the 
headquarters from its current location to the United States. We 
provided the requisite operational data to support their analysis of 
the comparative costs, benefits, and risks. Until a final decision is 
made, we will continue to accomplish our mission from Stuttgart, where 
our proximity to Africa, both geographically and in terms of time 
zones, facilitates our ability to build relationships with our African 
partners, and allows our service members, civilians and their families 
to serve from a safe and well-supported location. Once the study is 
complete, we will comply with the guidance and decision of the 
Secretary of Defense.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. Admiral, with the recent announcement that the United 
States Navy will be home port shifting four Arleigh Burke Class DDGs to 
Naval Station Rota, Spain, in the coming years, how do you see these 
ships impacting your theater operations? Do you envision these ships 
strictly supporting missions in EUCOM and AFRICOM. As you are well 
aware, these are very versatile and capable platforms outside of their 
BMD mission set. What operational and strategic advantage do these 
ships provide you as a Combatant Commander?
    Admiral Stavridis. The four destroyers planned to be forward 
deployed to Rota, Spain, will provide EUCOM with the ability to 
maintain a continuous BMD presence in the region, while minimizing the 
impact of our missions on the overall readiness of the fleet. While 
these ships will primarily be assigned BMD duties, the multi-mission 
capabilities of these ships provides EUCOM with the tactical assets 
capable of responding to any number of emergent threats in the region. 
I envision these assets will primarily be employed in two ways: first, 
in steady-state operations providing EUCOM with the ability to carry 
out its BMD mission as assigned by the Secretary of Defense; second, 
these ships may be employed in contingency operations supporting 
national objectives and military operations, such as last year's 
Operation ODYSSEY DAWN.
    Mr. Wittman. Admiral, EUCOM conducts many exercises with the Israel 
Defense Forces. The instability in the region coupled with the numerous 
threats to Israel has increased in the last year. What is EUCOM doing 
to ensure the defense of Israel and ensure the stability of the region?
    Admiral Stavridis. First, while Israel is certainly in a volatile 
region of the world, I would argue that the threats to Israel have not 
increased in the last year. If you take the broad view of the history 
of the modern state of Israel, it is certainly more secure now that it 
was in 1948, 1967, 1973, or even during the First or Second Intifadas. 
Israel currently has signed peace treaties with two of its four 
neighbors. A third neighbor, Syria, is currently undergoing a period of 
serious internal unrest and is in no position to threaten Israel 
militarily. The terrorist threat posed by Lebanese Hezbollah from 
within the fourth neighbor has been deterred from overt attacks since 
the war in 2006. Moreover, the Palestinian leader Mahmoud Abbas has 
renounced violence. Unrest in the West Bank has subsided significantly 
over the last few years. Similarly, since Operation Cast Lead in 2008, 
rocket attacks from the Gaza Strip have never been more than sporadic. 
The most recent attack, from March 9-12, saw nearly 250 rockets 
launched without causing a single Israeli
casualty.
    Second, since the Arab Spring, Israel faces a more uncertain 
neighborhood. This effect, particularly in Egypt, combined with the 
continued Iranian nuclear program gives the Israeli government reason 
for concern about the future.
    EUCOM's robust bilateral and multilateral military exercise program 
offers the Israel Defense Forces strong reassurances of the United 
States' strong commitment to the security of Israel. The following list 
details the many EUCOM exercises and exercise planning conferences 
scheduled for 2012 in support of this commitment:
    March Organization JCET Execution SOCEUR NOBLE DINA 12 Execution 
NAVEUR NOBLE MELINDA 12 Initial Planning Conference NAVEUR RELIANT 
MERMAID 12 Initial Planning Conference NAVEUR
    April NOBLE SHIRLEY 12-1 Initial Planning Conference MARFOREUR 
Senior Leader Meeting EUCOM
    May CBRNE Enhanced Response Force--Package National Guard NOBLE 
SHIRLEY 12-1 Main/Final Planning Conference MARFOREUR NOBLE MELINDA 12 
Main/Final Planning Conference NAVEUR
    June RELIANT MERMAID 12 Main/Final Planning Conference NAVEUR
    July NOBLE SHIRLEY 12-1 Execution MARFOREUR
    August NOBLE MELINDA 12 Execution NAVEUR RELIANT MERMAID 12 
Execution NAVEUR NOBLE SHIRLEY 13-1 Initial Planning Conference 
MARFOREUR
    September None
    October NOBLE SHIRLEY 13-1 Main Planning Conference MARFOREUR 
AUSTERE CHALLENGE 12 Phase III FTX EUCOM AUSTERE CHALLENGE 12 Phase III 
CPX EUCOM AUSTERE CHALLENGE 12 Phase III WFX EUCOM
    November AUSTERE CHALLENGE 12 Phase IV CAX EUCOM AUSTERE CHALLENGE 
12 Phase V Tech Demo EUCOM AUSTERE CHALLENGE 12 Phase V LFX EUCOM
    Exercise Description:
    NOBLE SHIRLEY: A biannual Marine Forces Europe (MARFOREUR) combined 
arms exercise, designed to enhance selective small arms shooting and 
small unit movement tactics, training, and procedures (TTP) for 
employment in a counter-terrorism environment.
    NOBLE DINA: An annual Naval Forces Europe (NAVEUR) trilateral 
combined exercise scheduled with the maritime forces of the United 
States, Israel, and Greece and focused on Maritime Interdiction 
Operations (MIO) and Anti-Submarine Warfare (ASW) operations.
    NOBLE MELINDA: An annual NAVEUR bilateral exercise scheduled with 
the maritime forces of the United States and Israel, focused on 
Explosive Ordnance Disposal (EOD), mine warfare, and salvage skills. 
The exercise often includes both land-based EOD teams and divers.
    RELIANT MERMAID: An annual NAVEUR trilateral combined exercise 
scheduled with the maritime forces of the United States, Israel, and 
Turkey and focused on maritime Search and Rescue (SAR) and Humanitarian 
Assistance/Disaster Relief (HA/DR) operations.
    JCET: An annual SOCEUR Joint Combined Exchange Training 
encompassing Air, Ground and Maritime Special Operations Forces (SOF) 
engagement with IDF
counterparts.
    CERF-P: A bilateral Chemical, Biological, Radiological, Nuclear, 
Explosive (CBRNE) exercise coordinated by the National Guard Bureau 
involving units from the Indiana National Guard.
    AUSTERE CHALLENGE: A bilateral joint Ballistic Missile Defense 
(BMD) and Noncombatant Evacuation Operation (NEO) exercise that 
encompasses exercises JUNIPER COBRA 12 and JUNIPER FALCON 13.

    Mr. Wittman. General, East Africa remains a key operating and 
training area for Al Qaeda associates, and specifically, the Somalia-
based terrorist group al-Shabaab. How concerned is the Department about 
al-Shabaab's ability to attract and train foreign fighters--including 
recruits from the United States--who may project violence outward from 
East Africa and what exactly is the Department doing to counter this 
threat? Do you have a sufficient amount of Department resources--
including intelligence, surveillance and reconnaissance (ISR) and SOF 
assets--working to mitigate the spread of Al Qaeda's influence in the 
AFRICOM AOR?
    General Ham. [The information referred to is classified and 
retained in the committee files.]
    Mr. Wittman. General Ham, the new strategy calls for us to build 
innovative partnerships in order to maintain our global force posture. 
In attempting to build these partnerships, how are AFRICOM and U.S. 
military efforts in Africa perceived by Africans and by other foreign 
countries, including China? Do you feel that we are winning or losing 
when compared to China in attempting to build relationships, trust and 
influence throughout Africa?
    General Ham. We do not view China as a military adversary in 
Africa. I believe our African partners value a diverse set of 
relationships when it comes to meeting their security needs. Both the 
United States and China have the ability provide this support. I 
believe we should look for opportunities to partner with China in areas 
where our interests are similar.
    The operations, exercises and security cooperation engagements of 
the U.S. military are, in large measure, warmly received across the 
continent. We have developed and continue to maintain strong 
relationships with many key African partners as we address shared 
threats. We also look to establish partnerships with the new 
governments and militaries in such countries as Libya, Tunisia, and 
South Sudan. I have discussed with the National Guard Bureau the 
expansion of the State Partnership Program by two additional state 
partners this year. The long term relationships developed through this 
program would be beneficial to the development of the militaries in 
these nations.
    We also look to maintain strong relationship with non-African 
nations, non-governmental organizations and international 
organizations. We have strong relationships with the United Kingdom, 
France, the Netherlands, Canada, the North Atlantic Treaty 
Organization, and the European Union in order to partner to accomplish 
common goals in Africa. We are developing a relationship with the 
International Red Cross. In the future, I expect such combined efforts 
to increase.
    Mr. Wittman. General Ham, according to the International Maritime 
Bureau, 56% of global piracy attacks conducted from January to October 
2011 were orchestrated from the coasts of Somalia, and as of January 
31, 2012, Somali pirates held 10 vessels and 159 hostages. Do you feel 
that this global piracy problem, resonating out of Somalia, which is 
continuing to cost the United States, its allies, and international 
commerce millions of dollars and numerous resources to combat; is 
improving, deteriorating, or remaining unchanged? Additionally, since 
this problem will not be eliminated or even significantly reduced until 
the conditions in Somalia improve, is there any potential for positive 
changes inside Somalia in the near future?
    General Ham. The international response to the Somali piracy 
problem is achieving some success. Over the last year, pirate success 
rates originating from Somalia dropped by nearly 50 percent. This drop 
was, in large part, achieved by the increased use of industry accepted 
best practices such as embarked armed security teams which have proven 
100% effective in defending vessels against pirate attacks. 
Additionally, coalition and international forces may be contributing to 
the lower number of successful pirate attacks due to increased 
interdictions. Nevertheless, the total number of attempted attacks has 
remained essentially unchanged, suggesting that the pirates are 
continuing at the same operational tempo. Furthermore, due to the 
continuing trend of higher ransom payments, piracy generated revenue 
has remained steady. As long as the benefits outweigh the risks, Somali 
pirates will continue to conduct operations in this lucrative business. 
Ultimately, counter-piracy operations at sea must be complemented by 
the strengthening of law enforcement and judicial systems ashore.
    I believe there is potential for positive change inside Somalia. 
The tactical and operational successes of the African Union Mission in 
Somalia, Kenyan, Ethiopian, and Somali forces against al-Shabaab over 
the last 12 months have greatly reduced the organization's control over 
south-central Somalia. Improvement of governance in Somalia, to include 
security sector reform, is key to establishing conditions that are not 
conducive to piracy. The recent London Conference on Somalia 
highlighted the international community's support for change in 
Somalia. During the conference Secretary Clinton announced the United 
States will work with Somali authorities and communities to create 
jobs, provide health and education services, build capacity, and 
support peace building and conflict resolution. The combination of a 
weakened al-Shabaab and international support for development within 
Somalia makes this the best opportunity we have seen for positive 
change in Somalia.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. JOHNSON
    Mr. Johnson. As you know, undercover journalists with Al Jazeera 
English recently documented high-level corruption in the office of 
Sierra Leone's Vice President, Samuel Sam-Sumana.
    Footage presented in the Al Jazeera English documentary (``Africa 
Investigates--Sierra Leone: Timber!) appears to show that Vice 
President Sumana's aides solicited and accepted bribes on his behalf in 
exchange for illegal logging permits. The evidence was so damning that 
19 Members of Congress have requested that the U.S. government push the 
Government of Sierra Leone to hold the perpetrators
responsible.
    General, you have agreed to convey to your partners in the 
Government of Sierra Leone and The Republic of Sierra Leone Armed 
Forces (RSLAF) how deeply concerned Members of the U.S. Congress remain 
concerning this matter. Will you please update us on your conversations 
to this effect?
    General Ham. I have not yet had the opportunity to visit Sierra 
Leone to discuss the importance of good governance and fighting 
corruption, which is a conversation I believe, is best achieved in 
person. I will certainly provide an update after my visit. I believe it 
is worth noting that Sierra Leone has agreed to contribute troops to 
the African Union Mission in Somalia, the first nation to do so outside 
the East Africa region. I feel this is a positive step in the continued 
development of good
governance.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. Admiral, you've emphasized that the U.S. 
relationship with Poland is crucial to long term stability in the 
region. Can you please explain further what you mean by that? Why do 
you think Poland is important?
    How has our relationship changed with them and how will our future 
relationship be altered by the changes to the missile defenses plans in 
the region?
    Admiral Stavridis. Poland and the United States are natural 
partners in promoting democracy and good governance. Poland takes 
seriously its commitment to NATO, spending more on defense (in relation 
to GDP) than any other country in its region, including Germany. And 
Poland has one of healthiest economies in the EU. Poland has 
consistently been a staunch supporter of US policy, contributing troops 
to Operation IRAQI FREEDOM and currently ranking 5th out of 49 partner 
nations in total force contributions to the International Security 
Assistance Force in Afghanistan. Poland has significantly invested in 
its Air Force through the purchase of 48 F-16 aircraft and continues to 
improve its military police and special operations capabilities. 
Lastly, Poland's unique geopolitical position makes it, in both time 
and space, a key ally that can and does safeguard US and NATO Alliance 
interests in Europe.
    The Ballistic Missile Defense Agreement with Poland was initially 
changed in 2010 when a US policy shift made the intended ground based 
interceptors untenable. Poland did not receive this change well but 
remains a steadfast, willing partner in our national and NATO Alliance 
pursuit of ballistic missile defense. Therefore, it is in our interest 
to follow through on the commitment we have made to deploying ballistic 
missile defense assets in Poland.
    Mr. Schilling. Admiral, we focus a great deal on anti-terrorism 
efforts in the Middle East and in regards to the protection of the 
homeland. However, what challenges do you face with terrorist 
activities in the European theater and how are you dealing with them?
    Admiral Stavridis. [The information referred to is classified and 
retained in the committee files.]
    Mr. Schilling. Admiral, it is my understanding that when our 
soldiers are hurt in the conflicts in the Middle East they are first 
sent to EUCOM to be treated.
    How will the change in force structure in the European theater 
affect how we can take care of our wounded from overseas conflicts?
    Admiral Stavridis. The current projected change in force structure 
in the European theater is not expected to alter the staffing at the 
Medical Treatment Facilities in EUCOM and, therefore, will not affect 
EUCOM's ability to care for wounded service members during contingency 
operations.

    Mr. Schilling. You have had to address the threats that are posed 
by Al Qaeda and its affiliates in Africa, but also new emerging 
terrorist groups. Will you be able to keep the same amount of vigilance 
under the new budget and force structure?
    General Ham. I do not anticipate any reduced vigilance under the 
proposed budget and force structure. We will continue to work with the 
Department of Defense to obtain additional ISR assets.
    Mr. Schilling. You have stated that a lack of ISR capabilities have 
been challenging for AFRICOM. Will the changes to the Air Force's U2 
and Global Hawk programs make this issue more pronounced?
    General Ham. The U-2 multiple collection capability as well as 
anticipated future upgrades could expand our collection effectiveness 
on the continent. Though the RG-4 Block 30's single collection 
capability make it a less valuable mission platform when requirements 
necessitate the need for multiple sensors during a single
mission.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. The E-8C JSTARS is a high-demand, low-density platform. 
What are some of the missions they could perform if they were assigned 
to EUCOM on a regular basis?
    Admiral Stavridis. EUCOM would utilize E-8C JSTARS for monitoring 
and tracking vehicular traffic in several different operational areas 
across the EUCOM area of responsibility. First, we would establish a 
Ground Moving Target Indicator (GMTI) baseline with which to compare 
future collection trends in support of indications and warning during 
Phase 0 and Phase 1 operations and continued collection upon Concept 
Plan (CONPLAN) execution. Specifically, GMTI can be employed to locate 
and track movements of military or non-state actors, either singly or 
in groups. In peacetime, this capability can be used to established 
patterns-of-life, as well as assist efforts to counter smuggling and 
illicit arms shipments to rouge states and terrorist organizations.
    Mr. Scott. What is the role of the U.S. Coast Guard within your 
respective AORs in building partnerships?
    Admiral Stavridis. The U.S. Coast Guard (USCG) plays a very limited 
role within the USEUCOM area of responsibility as there were no 
operational Coast Guard ships or aircraft stationed in, or deployed to, 
Europe in 2011-2012. The tall ship USCGC EAGLE (WIX 327) visited her 
port of construction (Hamburg, Germany) and several other European 
ports in the summer of 2011 as part of her normal training and goodwill 
missions. The USCG has not deployed a cutter to participate in European 
naval exercises in four years due to other operational commitments.
    Due to the capable and professional nature of many European navies 
and coast guards who work closely with their lesser developed 
neighbors, the USCG experiences limited demand signals for development 
and partnership building in Europe. What demand signal there is can 
only be met by the USCG under limited circumstances due to the agency's 
wide mission set and severely taxed resources. The USCG holds six 
priority countries within Europe: Greece, Malta, France, The 
Netherlands, the United Kingdom, and the Russian Federation. The first 
two countries are priorities for their preeminence in maritime 
shipping; the next three countries are priorities due to their 
Caribbean territories and counter-narcotics cooperation; and Russia is 
a priority based upon the need to manage a shared maritime boundary in 
the Bering Sea. The USCG's partnerships with these countries are 
focused upon unique missions and do not necessarily meet the 
traditional definition of building partner capacity.
    The one USCG unit permanently stationed in EUCOM's theater is 
Activities Europe, a 28-man marine safety and inspection organization 
located in Rotterdam, The Netherlands. This unit does not report to, or 
directly interact with EUCOM. This unit conducts inspections of U.S.-
flagged vessels and some foreign-flagged ships headed to the United 
States. Since September 11, 2001, the majority of the mission involves 
administration of the International Ship and Port Facility Security 
Code. Under this reciprocal inspection regime, Activities Europe 
personnel provide guidance to foreign port and vessel owners to assist 
in the improvement of facility security, employee training, and 
incident response.
    As part of its limited international engagement authority, the USCG 
hosts students from dozens of countries in its U.S. schoolhouses every 
year. These students are nominated, vetted, selected, and managed by 
U.S. Embassy Offices of Defense Cooperation. The students' attendance 
is funded either via International Military Education and Training 
(IMET) monies allocated to their nations by the U.S. Department of 
State, or in large number by the Export Control and Related Border 
Security (EXBS) program. Nations may also self-fund their students. 
Between 30 and 70 European students attend USCG resident training each 
year.
    USCG Mobile Training Teams (MTT) travel the world to provide 
initial, refresher, and advanced training in a wide variety of 
subjects. They are common sights in Central/South America and Africa. 
They are rare in Europe, but have visited Azerbaijan, Georgia, Greece, 
and Malta in recent years. These teams are funded by IMET, EXBS, or 
national funds.
    At a higher organizational level, the USCG participates in many 
international forums, including the Arctic Council, the North Atlantic 
Coast Guard Forum, the U.N.'s International Maritime Organization, and 
the E.U.'s border control agency FRONTEX. This cooperation extends 
mostly into the policy and strategy domains with very little 
operational action, with the exception of the transfer of unclassified 
information regarding illicit trafficking. The USCG was the lead 
negotiator for the landmark international search and rescue agreement 
signed by the Arctic Council nations in May 2011.
    The USCG provides a maritime advisor in Georgia under the 
Department of State's EXBS program. This effort includes a very robust 
program of MTTs, U.S. resident training, two to three month subject 
matter expert deployments, and numerous infrastructure projects. 
Infrastructure projects include dry-dock overhaul of patrol boats, 
construction and outfitting of a maintenance facility, installation of 
an English language lab, and creation of a large maritime domain 
awareness coastal surveillance system. This multimillion dollar project 
includes integrating data from six radar stations via microwave/
Ethernet data network; installation of NATO-standard, encryption 
capable, multi-bandwidth communications; and integration of HF/VHF 
radio automatic direction finders.
    A USCG officer teaches at the World Maritime University in Malmo, 
Sweden. A USCG exchange helicopter pilot flies search and rescue with 
the United Kingdom's Royal Navy. The only USCG Attache outside of the 
western hemisphere resides on the country team of the U.S. Embassy in 
Malta. Two USCG liaison officers are assigned to U.S. Naval Forces 
Europe where they manage maritime strategy and military-to-military 
engagements with many partner nations.
    Finally, the USCG has two personnel permanently stationed on the 
EUCOM staff. One is the Deputy Director of the Joint Interagency 
Counter Trafficking Center where he guides the organization's 
interactions with the law enforcement agencies of partner nations. The 
other is the USCG liaison and maritime strategist within the Policy, 
Strategy, Partnering, and Capabilities (ECJ5/8) Directorate who plays a 
role in shaping EUCOM's Arctic strategy. Both personnel facilitate 
interaction with USCG organizations while simultaneously executing 
EUCOM missions and tasking.
    Mr. Scott. What were the contributions of the U.S. Coast Guard to 
EUCOM in 2011?
    Admiral Stavridis. The tall ship USCGC EAGLE (WIX 327) visited her 
port of construction (Hamburg, Germany) and several other European 
ports in the summer of 2011 as part of her normal training and goodwill 
missions. The USCG has not deployed a cutter to participate in European 
naval exercises in four years due to other operational commitments.
    The USCG holds six priority countries within Europe: Greece, Malta, 
France, The Netherlands, the United Kingdom, and the Russian 
Federation. The USCG cooperates closely with the maritime shipping 
regulators of Greece and Malta due to their pre-eminence in maritime 
commerce as vessel flag states and cargo transshipment points. The USCG 
maintains very close operational relationships with France, The 
Netherlands, and the United Kingdom due to their Caribbean territories 
and counter-narcotics cooperation in that region. The USCG holds a 
unique position within the U.S. government as a trusted partner with 
Russia based upon the need to manage a shared maritime boundary in the 
Bering Sea. The USCG's partnerships with these countries are focused 
upon unique missions/initiatives and are not managed by EUCOM.
    The one USCG unit permanently stationed in EUCOM's theater is 
Activities Europe, a 28-man marine safety and inspection organization 
located in Rotterdam, The Netherlands. This unit does not report to, or 
directly interact with, EUCOM. The vessel and port facility inspection 
mission of this unit has indirect effects upon USEUCOM partner nations 
through reciprocal inspection regimes, goodwill, and 
professionalization.
    As part of its limited international engagement authority, the USCG 
hosts students from dozens of countries in its U.S. schoolhouses every 
year. These students are nominated, vetted, selected, and managed by 
U.S. Embassy Offices of Defense Cooperation. The students' attendance 
is funded via International Military Education and Training (IMET) 
monies allocated to their nations by the U.S. Department of State or in 
large number by the Export Control and Related Border Security program. 
Nations may also self-fund their students. In 2011, the USCG hosted 52 
resident students from 16 European countries. Courses included law 
enforcement boarding officer, search and rescue, pollution response, 
International Maritime Officer Course, and apprentice level 
engineering.
    At a higher organizational level, the USCG participates in many 
international forums, including the Arctic Council, the North Atlantic 
Coast Guard Forum, the U.N.'s International Maritime Organization, and 
the E.U.'s border control agency FRONTEX. This cooperation extends 
mostly into the policy and strategy domains with very little 
operational action with the exception of the transfer of unclassified 
information regarding illicit trafficking. The USCG was the lead 
negotiator for the landmark international search and rescue agreement 
signed by the Arctic Council nations in May 2011.
    The USCG provides a maritime advisor in Georgia under the 
Department of State's Export Control and Related Border Security 
program. This advisor assists in the identification, acquisition, 
installation, training, and employment of maritime border surveillance 
and associated law enforcement tactics, procedures, and policies.
    A USCG officer teaches at the World Maritime University in Malmo, 
Sweden. A USCG exchange helicopter pilot flies search and rescue with 
the United Kingdom's Royal Navy. The only USCG Attache outside of the 
western hemisphere resides on the country team of the U.S. Embassy in 
Malta. Two USCG liaison officers are assigned to U.S. Naval Forces 
Europe where they manage maritime strategy and military-to-military 
engagements with many partner nations.
    Finally, the USCG has two personnel permanently stationed on the 
EUCOM staff. One is the Deputy Director of the Joint Interagency 
Counter Trafficking Center where he guides the organization's 
interactions with the law enforcement agencies of partner nations. The 
other is the USCG liaison and maritime strategist within the Policy, 
Strategy, Partnering, and Capabilities (ECJ5/8) Directorate who plays a 
role in shaping USEUCOM's Arctic strategy. Both personnel facilitate 
interaction with USCG organizations while simultaneously executing 
EUCOM missions and tasking.
    Mr. Scott. What is the role of military bands within EUCOM and are 
they a cost-effective way of bringing people together and fostering 
greater understanding?
    Admiral Stavridis. Three Service component command headquarters 
maintain bands within the U.S. European Command (EUCOM) Theater: U.S. 
Army Europe (USAREUR); U.S. Naval Forces Europe (CNE); and U.S. Air 
Forces in Europe (USAFE). These bands are key elements in the command's 
outreach program, and their work is directly tied to two of EUCOM's 
expressed strategic priorities: 1) Building partnerships to enhance 
security, regional stability and support global initiatives; and 2) 
Countering transnational threats, which these bands do by endearing 
foreign publics to the United States.
    Many of the bands' events are at no additional cost to the 
government. The CNE Band was invited to participate in the most 
prestigious military band event (called a ``tattoo'') in the world in 
August 2012--the Edinburgh Military Tattoo. The travel and TDY expenses 
for this month-long engagement are covered by the event sponsor, and 
broadcast coverage is expected to reach 300 million people throughout 
the world, including China for the first time this year.
    The engagements that do have costs attached to them typically have 
significant returns on investment. For example, the USAFE Band spent 
approximately $140,000 to send a 42-person concert band to Russia last 
year. Through seven performances in six days in Ural and Western 
Siberia, the band played for a live audience of 5,800, and reached over 
130 million people through positive media coverage. Based on post-event 
discussions and audience feedback, these Russians began to see 
Americans as ``very sociable, warm people who engage easily with 
others--not at all like the Americans portrayed in movies.''
    From an interagency perspective, the bands also help U.S. embassies 
reach out to people who would otherwise be inaccessible. In September 
2011, the CNE Band played in an Azerbaijan internally displaced persons 
community where people do not have access to open information and lack 
understanding of the U.S. and its partnership with Azerbaijan. 
According to Chris Jones, cultural affairs officer for the U.S. Embassy 
Baku, ``The Navy Band was one of the most effective tools I have seen 
for building relationships with both government elites and the 
population as a whole. They `made' every event in Azerbaijan--providing 
that extra something that got us more media coverage, more public 
support, and more buy-in from high ranking officials.''
    Military bands hold a rich tradition, but, more importantly, this 
``soft power'' tool of the Department of Defense continually 
contributes to global and regional security and stability, enhances 
diplomacy and partnership, and builds vital goodwill.
    Mr. Scott. The hospital ships Comfort and Mercy are high-demand, 
low-density platforms. If the United States had a larger fleet of 
hospital ships, what roles and missions could they perform within 
EUCOM's AOR?
    Admiral Stavridis. The current design and configuration of the 
COMFORT and MERCY makes it difficult to employ these vessels in the 
EUCOM Theater due to displacement and port access. Potential missions 
would include training and collaboration with partner nations in NATO 
and European Union that desire increased medical cooperation. The 
Hospital Ships would also support EUCOM Concept Plans (CONPLANS) within 
the Levant Region, as well as support to ongoing NATO humanitarian 
missions in Northern Africa.
    Mr. Scott. What is the status of NATO's ongoing engagement with 
Mongolia? What do they need to do in order to become formal NATO 
partner in ``Partners Across the Globe.''
    Admiral Stavridis. The first Mongolia-NATO Individual Partnership 
and Cooperation Programme (IPCP) received the approval of the North 
Atlantic Council (NAC) on 19 March 2012. I expect the announcement 
shortly acknowledging Mongolia as a formal partner to NATO in the 
Partners Across the Globe framework.
    Mr. Scott. Are U.S. flag and general officers banned from visiting 
any countries within your respective AORs? If so, which countries?
    Admiral Stavridis. In accordance with the September 2011 U.S. 
Department of State Cable signed by Secretary Clinton, no engagements 
between U.S. flag and general officers are to be conducted with 
Belarus. Therefore, senior official travel is essentially banned there.

    Mr. Scott. How would you rate the performance of E-8C JSTARS 
aircraft within AFRICOM?
    General Ham. During OPERATION ODYSSEY DAWN (MAR 2011), we employed 
JSTARS with good effect, but AFRICOM has not used JSTARS since that 
time.
    Mr. Scott. What is the role of the U.S. Coast Guard within your 
respective AORs in building partnerships?
    General Ham. The Coast Guard plays a critical role in building 
maritime security capacity by providing ships in support of the African 
Maritime Law Enforcement Partnership Program. By partnering with 
African nations' maritime forces during real-world operations, the 
Coast Guard assists our African partners enforce their maritime laws 
and also provides training in search and rescue, small boat operations 
and maintenance, and maritime law enforcement. The Coast Guard is also 
valuable in developing maritime bilateral agreements to enhance both 
U.S. and partner nation security by establishing the framework for 
operational maritime law enforcement cooperation.
    The Coast Guard's congressionally mandated International Port 
Security (IPS) Program complements our mission and expands the number 
of countries that conduct engagement with the command by maintaining 
bilateral relationships with 31 African nations to assess their 
implementation of effective maritime anti-terrorism measures.
    Mr. Scott. What were the contributions of the U.S. Coast Guard to 
AFRICOM in 2011?
    General Ham. In 2011, the Coast Guard deployed the Coast Guard 
Cutter FORWARD in support of the African Maritime Law Enforcement 
Partnership Program and conducted real-world operations and training 
with six African partner nations. Coast Guard training teams also 
completed 29 training missions with partner nations and hosted 20 
African students in resident training at U.S. Coast Guard training 
centers. International Port Security Liaison Officers of the Coast 
Guard's International Port Security program conducted maritime security 
anti-terrorism visits to ports in 31 coastal African states.
    In May 2011, the Coast Guard decommissioned and transferred a 
Cutter to Nigeria as an Excess Defense Article. The newly renamed NNS 
THUNDER is now being used in the Gulf of Guinea to counter threats such 
as piracy, illegal oil bunkering, and to ensure the security of 
offshore oil infrastructure.
    Additionally, Coast Guard expertise in maritime law was key to the 
success of our initiative to foster regional cooperation among the 
nations and regional economic communities in West and Central Africa, 
an important aspect of effectively combating piracy and maritime crime 
in the Gulf of Guinea.
    Mr. Scott. What is the role of military bands within AFRICOM and 
are they a cost-effective way of bringing people together and fostering 
greater understanding?
    General Ham. There are no bands assigned to U.S. Africa Command. 
However, in the past year the U.S. Air Forces Europe band and the U.S. 
Naval Forces Europe band performed in eight African countries. Military 
bands provide a cost-effective and unique public diplomacy opportunity 
for our country teams in Africa. They bridge cultural gaps and reach 
elements of the general population vital to U.S. relationships abroad 
by providing the best image of our men and women in uniform and 
Americans at large. The good will demonstrated by military bands 
highlights the professional nature of our armed forces and builds 
civilian trust in the U.S. and partner nation forces.
    Mr. Scott. The hospital ships Comfort and Mercy are high-demand, 
low-density platforms. If the United States had a larger fleet of 
hospital ships, what roles and missions could they perform within 
AFRICOM's AOR?
    General Ham. Hospital ships have tremendous trauma care capability 
for combat operations and can contribute to humanitarian assistance 
missions. However, hospital ships are not designed for capacity 
building due to their configuration for acute care and surgery. 
Additionally, the draft of large hospital ships limits access to many 
African ports. Many African nations have medical delivery systems that 
struggle to meet the most basic needs of the populace. The use of a 
hospital ship under these circumstances has to be coordinated carefully 
so as not to overwhelm developing medical systems. For these reasons we 
find the use of multi-mission ships that have the capability to operate 
in these constrained ports to be of greater overall benefit.
    Mr. Scott. Are U.S. flag and general officers banned from visiting 
any countries within your respective AORs? If so, which countries?
    General Ham. There are no countries within our area of 
responsibility that U.S. flag and general officers are banned from 
visiting for official business. However, there are policy and force 
protection restrictions that limit Department of Defense personnel from 
traveling in certain areas on the African continent. For example, 
Somalia has current policy restrictions that limit all Department of 
Defense visits and require special approval for travel. Sudan, 
Zimbabwe, and Eritrea are under sanctions and require close 
coordination with Department of State before flag officer travel. But, 
none of these restrictions specifically ban U.S. flag and general 
officers from visiting these countries.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. Admiral, how will the Administration's newly released 
defense strategy change the way you do business at EUCOM?
    Admiral Stavridis. The Administration's recently released defense 
strategy, entitled ``Sustaining Global Leadership--Priorities for 21st 
Century Defense'' reads: ``In keeping with [the] evolving strategic 
landscape, our posture in Europe must also evolve.'' As this occurs, 
the United States will maintain our Article 5 commitments to allied 
security and promote enhanced capacity and interoperability for 
coalition operations. You will see changes as we work with NATO allies 
to develop a ``Smart Defense'' approach that pools, shares, and 
specializes capabilities as needed. There is continuity in how we 
approach the challenges we face: we practice active security and 
forward defense focused on preserving our strategic partnerships in 
Europe; building interoperability with the NATO Alliance; deterring 
would-be adversaries; sustaining progress and transition in 
Afghanistan; and, when directed, conducting decisive military and 
counterterrorism operations to fight and win. The change will come in 
an even greater emphasis on sustaining our partners' abilities to work 
with us to accomplish these missions. Additionally, we will be making 
changes to respond to new challenges emerging in missile defense and 
cyberspace.
    Mrs. Roby. Admiral, you've often discussed that the most effective 
approach to the national security challenges of the 21st century is 
through ``Whole of Government'' solutions. Can you describe for us what 
you've learned from this approach, and if you still believe this is the 
best path forward?
    Admiral Stavridis. Yes, I remain convinced that a ``Whole of 
Government'' approach is still the best path forward. Indeed my 
personal experience at EUCOM over the past three years continues to 
reinforce my belief that this approach is both effective and expands 
the solution sets that we use to address issues across our theater. In 
my testimony, I cited the numerous interagency partners that we are 
privileged to host within our Command's J9-Interagency Partnering 
Directorate. We host representatives from the Federal Bureau of 
Investigation, Immigration and Customs Enforcement, Department of 
State, Department of the Treasury, Agency for International 
Development, Department of Energy, Department of Justice, Drug 
Enforcement Administration and Customs and Border Protection. These 
representatives help us tremendously, both in educating my staff and in 
influencing our planning and exercises at the regional/operational 
level. Their presence in Stuttgart complements the effective 
interagency ``whole of government'' effort down to the ``tactical/
country'' level at U.S. Embassy Country Teams across the 51 countries 
included in the EUCOM Theater.
    What is even more encouraging is that these interagency 
representatives are not at EUCOM simply to represent the interests of 
their parent agencies or departments; rather, they are valuable members 
of the EUCOM team, all working to achieve common objectives in the 
pursuit of our Command's mission and our nation's interests. The 
character and competency of our interagency partners earns them the 
credibility needed to function well in a predominantly military 
culture. Every day this team and their many contributions personify the 
motto at our Command: we are truly ``Stronger Together!''
    Beyond work with other federal partners, EUCOM is also reaching out 
to collaborate with academia and the private sector in order to tap 
non-traditional military solutions to the challenges we face. This is 
more than a ``whole of government'' approach; it is actually a ``whole 
of society'' collaborative effort. A good example of this approach was 
EUCOM's outreach to the Business Executives for National Security 
(BENS) in May 2011. With the concurrence of the U.S. Country Team in 
Riga and the government of Latvia, I asked BENS to assess cyber 
vulnerabilities in Latvia's government networks, financial systems, and 
technology networks. BENS organized a ``cyber dream team,'' whose 
experts generated a list of proactive steps that could be taken to 
strengthen Latvia's cyber security. This trip to Latvia was among the 
very best examples of useful and practical, public-private 
collaboration that I have ever seen. It is another testimony to the 
value of a ``whole of government/society'' approach in addressing the 
security challenges of the 21st century.
    Mrs. Roby. From you position as EUCOM Commander with responsibility 
for the defense of Israel, what is your assessment of Israel concerns 
about Iranian nuclear weapons development and what are the capability 
gaps or areas of concern in defending Israel from missile or rocket 
attacks?
    Admiral Stavridis. [The information referred to is classified and 
retained in the committee files.]

    Mrs. Roby. What are the costs associated with AFRICOM and how are 
these costs affected by AFRICOM's chosen headquarters location?
    General Ham. Our Fiscal Year (FY)13 headquarters operating budget 
request is $285M. There has not been a decision on the permanent 
location of the command's headquarters. The Office of the Secretary of 
Defense is currently leading a comprehensive, congressionally mandated, 
Basing Alternatives Study which will assess the cost-benefit with 
moving the headquarters from its current location to the United States. 
We have provided the requisite operational data to support their 
analysis of the comparative costs, benefits, and risks. Until a final 
decision is made, we will continue to accomplish our mission from 
Stuttgart, where our proximity to Africa, both geographically and in 
terms of time zones, facilitates our ability to build relationships 
with our African partners, and provided a location where our service 
members, civilians and their families are safe and well-supported. Once 
the study is complete, we will comply with the guidance and decision of 
the Secretary of
Defense.
    Mrs. Roby. If U.S. Africa Command was to move back to the United 
States, how would it be placed--one location or over a geographical 
region?
    General Ham. The decision on where to place the command 
headquarters will be made by the Office of the Secretary of Defense 
which is currently leading a comprehensive, congressionally mandated, 
Basing Alternatives Study to assess the cost-benefit of moving the 
headquarters from its current location to the United States. We have 
provided the requisite operational data to support their analysis of 
the comparative costs, benefits, and risks.

                                  <all>

</pre></body></html>
